<html>
<title> - NATO'S 50TH ANNIVERSARY SUMMIT</title>
<body><pre>[Senate Hearing 106-144]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-144


 
                    NATO'S  50TH  ANNIVERSARY  SUMMIT

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 21, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate



                      U.S. GOVERNMENT PRINTING OFFICE
 58-335 CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Cambone, Dr. Stephen A., research director, Institute for 
  National Security Studies, National Defense University, 
  Washington, DC.................................................    32
    Prepared statement of........................................    45

Grossman, Hon. Marc, Assistant Secretary of State for European 
  Affairs........................................................    14
    Prepared statement of........................................    50

Hadley, Hon. Stephen, partner, Shea and Gardner, Washington, DC..    31

Kramer, Hon. Franklin D., Assistant Secretary of Defense for 
  International Security Affairs.................................    19
    Prepared statement of........................................    53

Kyl, Hon. Jon, U.S. Senator from Arizona.........................     7
    Prepared statement of........................................    56

Larrabee, Dr. F. Stephen, senior analyst, Rand Corp., Washington, 
  DC.............................................................    35
    Prepared statement of........................................    59

Warner, Hon. John W., U.S. Senator from Virginia.................     7

                                 (iii)


                     NATO'S 50TH ANNIVERSARY SUMMIT

                              ----------                              


                       WEDNESDAY, APRIL 21, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:05 p.m., in 
room SD-562, Hon. Gordon Smith, presiding.
    Present: Senators Lugar, Smith, Biden, and Dodd.
    Also present: Senator Warner.
    Senator Smith. Ladies and gentlemen, we will convene this 
hearing of the Senate Foreign Relations Committee. I am 
chairman of the Subcommittee on European Affairs. We will be 
analyzing NATO's Strategic Concept and how it is being 
evaluated and negotiated as we speak.
    We expect to be joined by a number of other Senators, and 
also Senator John Warner, the chairman of the Armed Services 
Committee.
    We are going to accept into the record an exchange of 
letters that Chairman Warner and the President have had on this 
issue. He will be speaking to that also, I am sure.
    [The letters referred to follow:]

                              United States Senate,
                               Committee on Armed Services,
                                     Washington, DC, April 7, 1999.
The President
The White House
Washington, DC.

    Dear Mr. President:
    The Administration, in consultation with our NATO allies, is now 
finalizing various documents to be submitted to the Heads of State for 
ratification at the upcoming 50th anniversary NATO Summit to be held in 
Washington later this month. A key decision, in my view the most 
important one, is the revision of the Strategic Concept for the 
future--perhaps a decade--that will guide NATO in its decision making 
process regarding the deployment of military forces.
    I am recommending, Mr. President, that a draft form of this 
document be reviewed, by the principals, but not finalized, at this 
50th anniversary Summit. Given the events in Kosovo, a new Strategic 
Concept for NATO--the document that spells out the future strategy and 
mission of the Alliance--should not be written ``in stone'' at this 
time. Instead, NATO leaders should issue a draft Strategic Concept at 
the Summit, which would be subject to further comment and study for a 
period of approximately six months. Thereafter, a final document should 
be adopted.
    NATO is by far the most successful military alliance in 
contemporary history. It was the deciding factor in avoiding widespread 
conflict in Europe throughout the Cold War. Subsequent to that tense 
period of history, NATO was, again, the deciding factor in bringing 
about an end to hostilities in Bosnia, and thereafter providing the 
security essential to allow Bosnia to achieve the modest gains we have 
seen in the reconstruction of the economic, political and security base 
of that nation.
    Now NATO is engaged in combating the widespread evils of Milosevic 
and his Serbian followers in Kosovo.
    I visited Kosovo and Macedonia last September and witnessed 
Milosevic's repression of the Kosovar Albanians. Thereafter, I spoke in 
the Senate on the essential need for a stabilizing military force in 
Kosovo to allow the various international humanitarian organizations to 
assist the people of Kosovo--many then refugees in their own land, 
forced into the hills and mountains by brutal Serb attacks. Since then, 
I have consistently been supportive of NATO military action against 
Milosevic.
    Unfortunately, it is now likely that the NATO Summit will take 
place against the background of continuing, unfolding events relating 
to Kosovo. At this time, no predictions can be made as to a resolution.
    We are just beginning to learn important lessons from the Kosovo 
conflict. Each day is a new chapter. For example, NATO planners and 
many in the Administration, and in Congress, have long been aware of 
the disparities in military capabilities and equipment between the 
United States and our allies. Now, the military operation against 
Yugoslavia has made the American people equally aware and concerned 
about these disparities. The U.S. has been providing the greatest 
proportion of attack aircraft capable of delivering precision-guided 
munitions. Further, the United States is providing the preponderance of 
airlift to deliver both military assets (such as the critically needed 
Apache helicopters and support equipment) and humanitarian relief 
supplies, the delivery of which are now in competition with each other.
    Until other NATO nations acquire, or at least have in place firm 
commitments to acquire, comparable military capabilities, the United 
States will continually be called on to carry the greatest share of the 
military responsibilities for such ``out of area'' operations in the 
future. This issue must be addressed, and the Congress consulted and 
the American people informed.
    It is my understanding that the draft Strategic Concept currently 
under consideration by NATO specifically addresses NATO strategy for 
non-Article 5, ``out of area'' threats to our common interests--threats 
such as Bosnia and Kosovo. According to Secretary Albright in a 
December 8, 1999 statement to the North Atlantic Council, ``The new 
Strategic Concept must find the right balance between affirming the 
centrality of Article V collective defense missions and ensuring that 
the fundamental tasks of the Alliance are intimately related to the 
broader defense of our common interests.'' Is this the type of broad 
commitment to be accepted in final form, just weeks away at the 50th 
anniversary Summit?
    During the Senate's debate on the Resolution of Ratification 
regarding NATO expansion, the Senate addressed this issue by adopting a 
very important amendment put forth by Senator Kyl. But this was before 
the events in Kosovo. The lessons of Kosovo could even change this 
position.
    The intent of this letter is to give you my personal view that a 
``final'' decision by NATO on the Strategic Concept should not be 
taken--risked--against the uncertainties emanating from the Kosovo 
situation.
    The U.S. and our allies will have many ``lessons learned'' to 
assess as a pivotal part of the future Strategic Concept. Bosnia and 
Kosovo have been NATO's first forays into aggressive military 
operations. As of this writing, the Kosovo situation is having a 
destabilizing effect on the few gains made to date in Bosnia. This 
combined situation must be carefully assessed and evaluated before the 
U.S. and our allies sign on to a new Strategic Concept for the next 
decade of NATO.
    A brief period for study and reflection by ourselves as well as our 
Allies would be prudent. NATO is too vital for the future of Europe and 
American leadership.
    With kind regards, I am
            Respectfully,
                                     John Warner, Chairman.

                                 ______
                                 

                            THE WHITE HOUSE

                               washington

                             April 14, 1999

The Honorable John W. Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman:
    Thank you for your thoughtful letter on the upcoming NATO summit 
and the revised Strategic Concept. I appreciate your attention to these 
important issues, and I agree strongly with your view that NATO's 
continued vitality is essential to safeguarding American and European 
security.
    I have thought carefully about your proposal to delay agreement on 
the revised Strategic Concept in light of NATO's military operations in 
Kosovo. While I share your deep concern about the situation in Kosovo 
and the devastating effects of Serb atrocities, I am convinced that the 
right course is to proceed with a revised Strategic Concept that will 
make NATO even more effective in addressing regional and ethnic 
conflict of this very sort. Our operations in Kosovo have demonstrated 
the crucial importance of NATO being prepared for the full spectrum of 
military operations--a preparedness the revised Strategic Concept will 
help ensure.
    The Strategic Concept will reaffirm NATO's core mission of 
collective defense, while also making the adaptations needed to deal 
with threats such as the regional conflicts we have seen in Bosnia and 
Kosovo as well as the evolving risks posed by the proliferation of 
weapons of mass destruction. It will also help ensure greater 
interoperability among allied forces and an increased European 
contribution to our shared security. The Strategic Concept will not 
contain new commitments or obligations for the United States but rather 
will underscore NATO's enduring purposes outlined in the 1949 North 
Atlantic Treaty. It will also recognize the need for adapted 
capabilities in the face of changed circumstances. This approach is 
fully consistent with the Kyl Amendment, which called for a strong 
reaffirmation of collective defense as well as a recognition of new 
security challenges.
    The upcoming summit offers a historic opportunity to strengthen the 
NATO Alliance and ensure that it remains as effective in the future as 
it has been over the past fifty years. While the situation in Kosovo 
has presented difficult challenges, I am confident that NATO resolve in 
the face of this tyranny will bring a successful conclusion.
    Your support for the NATO Alliance and for our policy in Kosovo has 
been indispensable. I look forward to working closely with you in the 
coming days to ensure that the summit is an overwhelming success.
            Sincerely,
                                              Bill Clinton.

    Senator Smith. I am pleased to welcome before the committee 
six distinguished witnesses to testify on matters surrounding 
NATO's 50th Anniversary Summit. We will first hear from Senator 
Jon Kyl, author of the Kyl amendment, which provided important 
direction to the NATO Strategic Concept Review.
    Senator Kyl will be followed by the administration point 
men on NATO: Assistant Secretary of State Marc Grossman and 
Assistant Secretary of Defense Frank Kramer.
    Finally, we will hear from a panel of outside experts: Mr. 
Stephen Hadley, Dr. Stephen Cambone, and Dr. Stephen Larrabee.
    Despite the ongoing war in Kosovo, it is fitting that 
leaders of the alliance convene next week to celebrate the 
victory of democratic capitalism on the European continent. But 
in order for the NATO summit to be successful, we must set NATO 
on a course to meet the short-term challenge of the war in the 
Balkans and the long-term test of maintaining European 
stability well into the next century.
    The challenge to the leaders of the alliance is 
substantial. Failure is simply not an option.
    I believe it is well known that I am a supporter of NATO 
and that I look forward to the celebration. But, frankly, I 
must tell you that I have never been more fearful for NATO's 
future because I fear, if the present trend continues in the 
war with Yugoslavia, that a belief will take root in Congress 
and in the country that, but for NATO, we would not be in this 
fight, and that because of NATO, we cannot win this fight. I 
plead with the administration to win this fight.
    The administration has laid out the terms of victory, but I 
do not, frankly, see the means or the unity that it takes to 
get the job done. I might add that I am concerned about the 
organization that is providing the targeting in this war.
    Over the past year, NATO members struggled with the 
difficult decisions on whether to intervene militarily in 
Kosovo. This is to be expected in democratic nations for whom 
going to war is the last recourse chosen.
    I am worried, however, about a new form of isolationism in 
Europe. It manifests itself in excessive passive reliance upon 
international organizations and institutions, such as the 
United Nations, OSCE, the International Criminal Court, to 
provide the sole defense for our common interests and values.
    While I fully support these international organizations and 
their attempts to end disputes in Bosnia and Kosovo with the 
support of the United Nations and the OSCE, we must not forget 
that laws are made for law abiding people, not criminals. Law 
enforcement is also necessary to vanquish those who choose to 
live outside the law.
    Who can forget that the worst atrocities during the war in 
Bosnia were committed in the very presence of the United 
Nations protection force by individuals already under 
indictment for international war crimes?
    If we had allowed a narrow reading of the United Nations 
Charter to place the claims of Yugoslav sovereignty above the 
defense of our values in Europe, as some have argued, then I 
fear it would have proven that we have learned little from the 
last century. After all, the Jews herded into the death camps 
of the Holocaust were citizens of sovereign countries.
    What happened to the solemn pledge of ``never again'' that 
arose from the horrors of World War II? Has it become never 
again except when a consensus cannot be reached in the United 
Nations Security Council?
    On the eve of the summit, members of the alliance remain 
locked in disagreement over a proposal to require United 
Nations approval for NATO actions outside alliance territory. 
Let me be blunt on this point. Such a proposal, if agreed, 
would be fatal to the alliance.
    NATO does not act except with the consent of its 19 
democratic governments. Does anyone seriously believe that 
submitting its decisions to the review of the United Nations 
Security Council will add to NATO's legitimacy?
    As shown by China's recent veto of a U.N. mandate in 
Macedonia, this will only create opportunities for mischief.
    NATO does not get its legitimacy from the United Nations. 
Rather, it is nations like those in NATO that give legitimacy 
to the United Nations.
    The question of the United Nations mandating is not only 
the outstanding challenge for NATO, the alliance must also 
develop a proper formula to reassure applicant nations that 
membership remains a real option.
    I am quite optimistic about the chances for future NATO 
enlargement. The commitment toward enlargement enshrined in 
Article X of the North Atlantic Treaty, repeated in the 1997 
Madrid Summit Communique and overwhelmingly endorsed by 80 U.S. 
Senators last April, obviously creates a presumption that 
enlargement will continue.
    NATO must reassure candidate countries that we are serious 
about further enlargement, not only through words of support of 
enlargement but through concrete actions. More urgent than new 
invitations, however, is a demonstration of will by NATO to 
meet the challenges that confront us at the end of this 
century.
    A final issue I understand that will be in dispute among 
the allies is related to the European Security and Defense 
Identity. The United States can and will work in support of the 
European Union foreign and security policies that are effective 
and backed by real capabilities. However, we are in trouble on 
both sides of the Atlantic if the purpose of this effort in the 
EU is to differentiate Europe from the United States, if the 
common policies consist of a lowest common denominator and if 
common security is to be provided by a separate and autonomous 
entity outside of NATO. For those who would seek to use ESDI to 
set up a competition with the United States, I say this. There 
are many in the U.S. Congress who would welcome the opportunity 
to shed European security obligations, especially now.
    In short, the U.S.-European partnership should and will 
have room for a louder European voice. But this increased voice 
will come at an increased dedication of European resources to 
act in places like Bosnia and Kosovo, not from rearranging the 
architecture of European institutions.
    Finally, on the subject of Kosovo, I am greatly 
dissatisfied by the missteps and the missed opportunities that 
brought us to this point. I am convinced we could have done 
more by acting sooner than we did.
    However, while I am troubled by the how and when of this 
war with Yugoslavia, I have absolutely no problem with the 
question of why. To stand idly by while Slobodan Milosevic 
brutalizes the population of Kosovo would diminish us as a 
Nation and as an alliance.
    This is a view I am certain is shared by many of our 
European partners and it is a factor that has produced a high 
level of NATO unity for which I and many Americans are grateful 
to our European and Canadian allies.
    Let's all make sure to direct that unity toward a 
commitment now to win this war.
    When Senator Biden arrives, we will hear from him.
    Until then, Senator Lugar is here and we welcome Senator 
Warner, the chairman of the Armed Services Committee.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, I thank you. Later this week 
NATO will honor its 50th anniversary at a summit here in 
Washington, DC. The leaders of the 19 NATO member nations and 
the heads of State of many Partnership-for-Peace participants 
will participate in meetings to discuss the successes of the 
NATO Alliance and its future in the post-cold war world. I have 
introduced Senate Concurrent Resolution 27 on behalf of 
Senators Roth, Lott, Lieberman, DeWine, Voinovich, Hagel and 
myself. It sets forth three goals for the United States to 
achieve in discussions over the Strategic Concept and the 
future of the NATO Alliance.
    The main points of Senate Concurrent Resolution 27 are that 
NATO's open door policy toward new members established by 
Article X of the Washington Treaty has given countries of 
Central and Eastern Europe the incentive to accelerate reforms, 
to settle peacefully disputes with neighbors, and to increase 
regional cooperation.
    The result of a closed door policy would be the creation of 
new dividing lines across Europe. A review of the nine current 
applicant countries should be conducted. A review would provide 
NATO aspirants with additional incentive to continue 
democratic, economic, and military reforms.
    Second, NATO was oriented and organized to defend and 
respond to an attack from the East. Since the collapse of the 
Soviet Union, new threats have replaced the nightmare of the 
Soviets crashing through the Fulda Gap.
    The proliferation of weapons of mass destruction, rogue 
States, terrorism, ethnic strife, and other potentially 
destabilizing elements now threaten the alliance. The true core 
of NATO has always been collective defense. But Article IV 
suggests that NATO will consult and can act if the security of 
any of the parties is threatened. So ``out of area'' is not a 
new NATO responsibility. These types of actions are supported 
by language in the treaty, ratified by the Senate in 1949.
    It is important to remember that participation in non-
Article V missions is not obligatory. Each member is free to 
make an independent decision regarding participation.
    Third, our allies have not moved far enough or fast enough 
to improve their capabilities to defend against newly emerging 
threats. European forces lack serious power projection 
capabilities for demanding Article V missions in addition to 
the potential for meeting Article IV contingencies.
    This becomes self-evident when one considers the United 
States currently contributes only 20 percent of NATO's total 
conventional forces but provides about 80 percent of NATO's 
usable military capability for power projection missions.
    The U.S. Government must demand rough transatlantic parity 
in power projection. NATO is the only institution capable of 
building these necessary force structures.
    Mr. Chairman, I look forward to hearing my colleague, 
Senator Warner, and, obviously, Senator Kyl, our distinguished 
first witness and others who have joined us.
    Thank you.
    Senator Smith. Thank you.
    Chairman Warner.

   STATEMENT OF HON. JOHN WARNER, U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman, and thank you, 
Senator Lugar and Senator Kyl. We have, I think, a modest 
difference on my views.
    Mr. Chairman, some time ago I wrote the President, 
expressing my concern about putting in final form at this 50th 
Anniversary the Strategic Concept. My suggestion to the 
President is that we allow another 6 months within which to 
assess and study the lessons learned in Kosovo, Kosovo being 
the first combat operation of the NATO forces.
    It seems to me a relatively simple request. I have provided 
you with copies and you have placed my letters in the record.
    The President, in a respectful way, declined to accept this 
recommendation.
    I would pick up on what Senator Lugar has just said here. 
Eighty percent of the usable power projection forces are ours. 
We are flying 60 percent of the missions. The airlift we have 
not even yet tried to quantify. We have seen the competition in 
trying to get the Apaches in place for the use of the airlift 
for the very needed mission, ancillary though it is, of the 
refugees.
    All of this is to say let's pause a minute. In the 
aftermath of whatever conclusion Kosovo comes to, let's study 
it and let that be a guidepost for a revision of the next 
Strategic Concept.
    In this way, Congress could have a voice in it, the 
legislatures of the other 18 nations could have a voice in it, 
and we could arrive at a document that I believe would be 
received by the 19 nations and their respective constituencies 
with a much greater feeling of security, certainty, and 
confidence that we have done the right thing.
    There are so many unknowns coming out of the Kosovo 
operation, indeed remaining out of the Bosnia operation. There 
is no compelling reason to rush to judgment and put this 
concept in stone at the 50th Anniversary Conference against the 
background of Kosovo.
    This is my simple request. I am glad that many others are 
now picking this up.
    I thank the chair and my distinguished colleagues for 
indulging me for a minute.
    Senator Smith. Thank you, Senator Warner.
    Senator Kyl, we turn to you as our first witness.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you very much, Mr. Chairman. I might say 
that much of what I say will be seen as another way of saying 
what all three of you, my distinguished colleagues, have 
already said. The slight tactical difference that Senator 
Warner and I have with respect to timing I think may end up 
being a distinction without a difference, really, in that, 
whether we like it or not, we are going to learn lessons if we 
are alert and if we are honest, and we had better apply those 
lessons whether the Strategic Concept are adopted at this 
conference or not.
    In this respect, I totally agree with Senator Warner. But I 
do suspect that there will be a Strategic Concept document 
coming out of this particular meeting and that we should be 
alert to the fact that it will probably be subject to differing 
interpretations. To that extent, and to the extent that we do 
learn lessons from Kosovo, we should be prepared to revisit the 
document and focus on those lessons.
    Mr. Chairman, I want to thank you for holding this hearing, 
particularly at this important time, and for allowing me to 
testify.
    As NATO celebrates its 50th anniversary and the accession 
of three new members, it is useful to take stock of its 
accomplishments. But any assessment, as Senator Warner has 
said, must remain tentative in light of the war in Kosovo.
    This conflict and its resolution will set the tone for the 
future far more definitively than any summit declaration.
    What can we, the Senate, do to guide the alliance over the 
next decades is the question before you.
    Last year, when we took up enlargement of the alliance, as 
you noted, I offered an amendment that received very broad 
bipartisan support--from 90 Senators. In that amendment, the 
Senate set forth 10 principles that should guide U.S. policy as 
NATO revises its Strategic Concept.
    I would like to summarize just six of those.
    NATO is, first and foremost, a military alliance and is the 
principal foundation for the defense of the security interests 
of its members against external threats. NATO is and should 
remain capable of undertaking operations in defense of its 
interests without reference to the permission of other bodies. 
Running a war by consensus within the alliance is difficult 
enough, as we are seeing. The thought of doing so through the 
United Nations is totally impractical and dangerous.
    There have been recent press reports of delays in 
blockading oil shipments to Serbia because of French concerns 
about the absence of a U.N. mandate. Meanwhile, American 
pilots--and they are overwhelmingly American on most of the 
difficult missions--are at risk striking oil refineries. This 
state of affairs is unconscionable.
    Second, NATO members will face common threats to their 
security. The most serious is the potential reemergence of a 
hegemonic power threatening Europe. The unstated concern was, 
of course, Russia.
    We all hope, of course, that Russia will succeed in its 
difficult transition and emerge a prosperous and stable 
democracy. We should do our best to assist Russia in its 
transition. But we should recognize that Russia's future is 
beyond our capacity to positively influence except at the 
margin.
    Recent NATO actions in Kosovo certify that we can have a 
negative impact on the relationship. In establishing relations 
between NATO and Russia, we must strike a balance between 
consultation, when constructive, and exclusion on those growing 
number of occasions when Russia's goals are directly inimical 
to our own and Russia measures its policy's success by the 
damage it can do to America's global role.
    A renewed threat from such a power is, fortunately, remote. 
A threat from rogue States and gangster regimes which possess 
weapons of mass destruction and seek the means to deliver them 
is here today. To this threat NATO's response has reflected 
little unity of purpose.
    There is no alliance consensus on relations with Iran. 
Allies have directly challenged and undercut our sanctions 
aimed at dissuading Iran from sponsoring terrorism. Yet Iran 
may be within 5 years of attaining a nuclear weapons capability 
and is developing a missile capable of reaching Western Europe, 
both with Russian assistance.
    In Iraq, only Britain joins us in ongoing military 
operations. Some allies actively undermined UNSCOM inspections 
last year and now seek to weaken the U.N. sanctions regime in 
their haste to gain commercial advantage.
    Allies voice a preference for responding to proliferation 
through diplomatic means rather than through enhanced defense 
efforts, such as missile defense. There is a large and growing 
gap between the United States and Europe in both political will 
and military capabilities to respond to such threats.
    NATO also may face threats to its security, stemming from 
ethnic and religious animosities, historic disputes, and 
undemocratic leaders.
    Mr. Chairman, it is not clear to me that there was 
sufficient threat to justify our involvement in Kosovo. But the 
circumstances there are the kind of conflict that could 
represent a security threat, I think we would all agree, and 
our Strategic Concept should recognize that fact.
    Kosovo points up a very disturbing state of affairs. Our 
European allies have the greatest difficulty and are, in fact, 
sometimes incapable of responding in a politically unified and 
militarily proficient way to a threat to the stability and 
security of Europe. Allies categorically demand that an 
American presence remain in Bosnia. Intervention in Kosovo is 
arguable on its merits, as I said. But it is clearly not 
sustainable for the United States to carry almost the entire 
burden of Western security outside of Europe and a large 
measure of it within Europe.
    America's armed forces are not capable and its people not 
willing to carry both European and global responsibility 
without the assistance of those equally able to afford to do so 
and geographically more at risk.
    In any event, the particular circumstances of our 
involvement in Kosovo under the current Strategic Concept--not 
the new one, but the current one--should not be cited as 
proving that our new Strategic Concept should preclude a NATO 
response to a threat arising out of ethnic conflict.
    A NATO response may be necessary in some circumstances. 
Whether it was in Kosovo is open to debate. But if it was the 
wrong decision, it is not a fault of the Strategic Concept but 
a misapplication of those concepts.
    Third, the core mission of NATO is collective self-defense 
and its allies must sustain the ability effectively to respond 
to common threats. This will require that NATO members possess 
military capabilities to rapidly deploy forces over long 
distances and operate jointly with the United States in high 
intensity conflicts--a point that Senator Lugar made just a 
moment ago.
    Mr. Chairman, most allies are slowly but inexorably losing 
the ability to field the kind of highly trained, well equipped 
forces that can operate in even a medium intensity environment.
    General Klaus Naumann, the German head of NATO's Military 
Committee, has warned that the day may soon be coming when 
European and American forces may no longer be able to fight 
along side each other on the same battlefield because of the 
rapidly expanding gap in their combat capabilities.
    The 1991 Strategic Concept stated that NATO military forces 
could be safely reduced. This year I would hope to see an 
affirmation that they must be sustained and modernized.
    Fourth, the amendment notes that NATO's integrated military 
structure underpins NATO's effectiveness by embedding members 
in a cooperative planning process and assuring unity of 
command. As Europe seeks its security and defense identity, we 
should assure that they are undertaken within the framework of 
the transatlantic alliance.
    A European Security and Defense Identity that excludes 
Turkey would directly call into question the survival of NATO. 
Europe's defense identity should be measured by the creation of 
a serious military capability and by its ability to 
successfully respond to crises within Europe.
    Fifth, the amendment states that nuclear weapons will 
continue to make an essential contribution to deterring 
aggression, especially aggression by potential adversaries 
armed with nuclear, chemical, or biological weapons, a point on 
which the 1991 Strategic Concept was silent. I would hope to 
see it reflected in the new version since this threat is now 
with us in a much more immediate way.
    The final point of the Kyl amendment addresses 
burdensharing. It is the view of the Senate, as expressed by my 
amendment, that the responsibility and financial burden of 
defending the democracies of Europe should be more equitably 
shared. I would suggest that the reverse has occurred and the 
current trendlines are going in the wrong direction.
    As the letter which you, I, the majority leader, and the 
chairman and the ranking member of this committee sent to the 
President in February stated, NATO is a tradeoff for the United 
States. The United States is committed to help in the defense 
of Europe in return for having allies that are capable of 
defending against foes that threaten the alliance both within 
and outside of Europe.
    If the Europeans are permitted to shift the entire burden 
of extra-European security to the United States, then public 
support for NATO will wither. I am seriously concerned that the 
tone of the new Strategic Concept will emphasize crisis 
management and peacekeeping within Europe and shy away from any 
suggestion that NATO may need to address extra-European 
threats, as was implied by my amendment.
    On present evidence, the new strategic concept will freeze 
unresolved arguments at some lowest common denominator. If we 
can't resolve the fundamentals now, it will be infinitely more 
difficult in the midst of a conflict involving really vital 
interests.
    At its 50th anniversary, NATO can count its blessings and 
take pride in its achievements. Today we face a short-term 
crisis in the alliance because of the war its forces are 
fighting in Kosovo. But the myriad of other challenges we face 
has resulted in what I see as a slow but steady withering of 
alliance cohesion, a gradual loosening of bonds.
    Looking beyond Kosovo, I think that this deterioration can 
be reversed. What is needed is confident, consistent, and 
unified leadership on our part.
    Lady Margaret Thatcher stated at a Heritage Foundation 
speech that, and I quote, ``America's duty is to lead; the 
other Western countries' duty is to support its leadership.''
    Of course, Mr. Chairman, it would be undiplomatic for an 
American to state this truth quite so boldly. But I can offer 
no better prescription to my colleagues here for an enduring 
Atlantic alliance of free nations. Unity on our part is a 
prerequisite to European nations following our leadership.
    Thank you again for the opportunity to testify.
    Senator Smith. Senator Kyl, I am mindful that you have 
another commitment at 2:30. I wonder, though, since I think 
there is probably an interest in a little bit of an exchange, 
if you could stay just a while longer, if that's possible.
    Senator Kyl. Thank you.
    Mr. Chairman, I have a statement which is much longer and 
more lengthy, which I would like to submit as soon as I rewrite 
one paragraph.
    Senator Smith. We will receive it when it is rewritten.
    Senator Kyl. Thank you.
    [The prepared statement of Senator Kyl is in the appendix 
on page 56.]
    Senator Smith. Senator, it seems to me as I listened to the 
differences between you and Senator Warner, he is talking about 
timing and operations and I think you are talking about 
budgetary commitments and maybe also a command structure that 
works.
    Senator Kyl. May I characterize it? I don't know how I 
would be talking about budgetary concerns, but I think he and I 
have stated the same concern and it has been stated in one way 
or another by the four of us who have spoken here. I think our 
only difference is one of whether or not the Strategic Concept 
should be finalized this week or should be deferred.
    My view is that we had better listen to the lessons that 
come out of Kosovo and adjust our thinking, if, indeed, it 
needs to be adjusted; that this can be done and should be done 
in the way that Senator Warner prefers it to be done; but since 
the Strategic Concept is going to be defined in this next week, 
we should all be unified in insuring that it expresses the 
sense that we agreed to when we adopted the amendment and 
brought the three new countries into NATO; and that this must 
include an emphasis on terrorism, the missile threat, nuclear 
issues, the responsibility of the NATO countries to get up to 
speed with the United States; so that whatever we agree we must 
do together, we have the joint capability of doing.
    Senator Smith. Do any of my colleagues have a burning 
question for Senator Kyl?
    Senator Warner. If I could make an observation, there are 
three of us up here that I can count who have been here for 
over 20 years in the Senate. I remember when I first came. We 
had a battle on the floor of the Senate time and time again. 
Scoop Jackson, Stennis, Tower, and Goldwater would rally us out 
on the floor to stop the move to cut NATO, to bring our troops 
home--the job is done, it is over.
    Senator, we could revisit some of that strong feeling 
emanating from the grassroots of America in the aftermath of 
Kosovo. I hope not. But I've witnessed it before, as have my 
colleagues who are nodding their heads as I speak.
    All I am saying is what is 6 more months to just leave it 
in draft form? Come out with a draft. You are not likely to 
resolve at this conference the tough issue of the relationship 
between the United Nations and NATO operations. That may come 
out unresolved, and properly so.
    So there will be issues that will not be finalized. All I 
am suggesting is don't go back 6 months from now and rewrite 
something that was put in final form on the 50th anniversary. 
Just leave it in draft form, study it, and then 6 months from 
now, in reflecting on what has occurred, put it in final form. 
It's a very simple request.
    Senator Smith. Perhaps you would like the administration to 
answer that very question.
    Senator Kyl. Yes, it's not for me to say. You have 
addressed the issue to the President and he will be the one, 
through his team, who negotiates this and who will decide.
    I think I have made my point clearly. I will be working 
with you. I'm certainly willing to work with you on helping to 
identify what these lessons are. But I certainly do not think 
they should preclude us from recognizing that there could be 
undemocratic leaders and ethnic conflict that create threats in 
the future that NATO would want to respond to.
    Recognizing the truth of that reality does not say to me 
anything about whether or not our involvement in Kosovo at the 
current time under the old Concept was warranted or not. That 
simply is a recognition of what will be true and whether, in 
the future, we make mistakes or do the right thing in getting 
involved as a result of one of those conflicts again will 
perhaps be more a question of how we applied the Concept than 
whether the Concept itself is correct or not.
    Senator Biden. Mr. Chairman, may I take 60 seconds?
    Senator Smith. Yes.
    Senator Biden. I would just respectfully suggest that had 
Milosevic moved along unabated and NATO not reacted, we would 
have proven that NATO is useless. NATO would be done. NATO 
would be finished. I respectfully suggest that if we do not 
resolve this in a way that the world looks to and says the 
right result occurred and Milosevic has been stopped, NATO's 
viability will diminish precipitously.
    But it would have had we not moved. Or how would we explain 
to any American that you have ethnic cleansing going on in what 
they consider to be the heart of Europe? Europeans deftly 
suggest that it is not the heart. NATO--just what is NATO there 
for? There is no Soviet Union to worry about today, there is no 
direct threat coming through the Fulda Gap, but you have this 
happening in Europe.
    So I acknowledge that we may learn something. The most 
optimistic thing that Senator Warner has said is that we will 
visit and make a judgment in 6 months. I hope in 6 months we 
will have determined all the lessons we are going to learn 
because we have finished the deal.
    I just want to point out--and I will conclude with this, 
Mr. Chairman, and here I am stating the obvious--this is a very 
delicate point in NATO's maturation process here. The idea, 
though, that we can have a circumstance where there is 
significant displacement of populations in the Euro-Asian 
continent, from the Urals to the Atlantic, and for NATO not to 
be involved in it in any way, I find incredibly difficult to 
figure out. What rationale do you then proffer to the American 
people in the near-term as to why we are spending over $100 
billion to support NATO and why we still have 100,000 troops in 
the region?
    So this is a bit of a Catch 22. I don't want to get into 
whether or not it has to be done, left open, closed, whatever. 
But the idea that somehow we could avoid this notion of NATO's 
involvement I think is whistling through the graveyard.
    Senator Warner. Mr. Chairman, may I associate myself with 
the remarks of my distinguished colleague.
    I need not remind you that it was this Senator who joined 
you on the floor when we got 57 votes.
    Senator Biden. Oh, absolutely. I am in no way suggesting 
otherwise.
    Senator Warner. There is no stronger proponent of NATO. I 
am just trying to point out what I think is an obvious 
situation here.
    Senator Kyl. Mr. Chairman, I really just must add one more 
minute because there really is not a disagreement among the 
five of us here, I think.
    But in a sense I guess what I was responding to is what I 
hear from a majority of people that I talk to both in the U.S. 
Senate and back home. I hear that threats arising out of ethnic 
conflict are none of our business--arising out of our 
dissatisfaction with our involvement in this particular 
operation.
    What I have tried to say, perhaps inelegantly, is that, 
even though people may argue whether or not our involvement in 
this particular conflict was justified or warranted, wherever 
you come down on that, if you are against the operation, do not 
thereby conclude that threats to NATO, i.e., the United States, 
can never arise from ethnic conflict or undemocratic leaders. 
It is an attack on that concept of the proposed Strategic 
Concept that I am trying to respond to.
    Senator Biden. I agree with you.
    Senator Kyl. Senator Biden, you and I agreed with each 
other on the floor that that was one of the circumstances that 
needed to be in there, just as much as the threat from chemical 
and biological terrorists, which was not in there before, and 
the missile defense issue, which was not in there before 
either.
    These are all new kinds of threats that need to be stated 
in the Strategic Concept. It does not really matter how you 
come down on whether we got into this conflict wrongly or 
rightly. I think we should not subtract that from the new 
Strategic Concept. That is the point I guess I was trying to 
make.
    Thank you very much, again, for the chance to speak to you.
    Senator Smith. Thank you, Senator Kyl. You have been 
terrific.
    We call up now Assistant Secretary Marc Grossman, the 
administration's representative here, and Assistant Secretary 
Kramer.
    Welcome to you both.
    Senator Biden. Mr. Chairman, I would like to suggest, while 
Mr. Grossman is setting up at the table, that after he finishes 
handling the Strategic Concept he come and settle the Social 
Security debate and also the health care issue. I think they 
are all at about the same level of difficulty.
    Senator Smith. We welcome you both.
    Secretary Grossman, we invite you to proceed, and then we 
will go to Secretary Kramer.

 STATEMENT OF HON. MARC GROSSMAN, ASSISTANT SECRETARY OF STATE 
                      FOR EUROPEAN AFFAIRS

    Mr. Grossman. Mr. Chairman, thank you very, very much. But 
I will pass on everything else.
    Thank you, Mr. Chairman. Obviously it is a pleasure to be 
here today to testify before this committee, especially 2 days 
before the NATO summit. I think both Assistant Secretary Kramer 
and I have greatly benefited from the chance to listen to the 
colloquy here amongst Senators.
    I think it is right in running through all the things that 
you said to be reminded that this alliance was founded 50 years 
ago by a generation of Americans and Europeans who fought in 
World War II and who witnessed the Holocaust. They created this 
alliance in large part because they believed it was their 
obligation to insure that such horrors never again occurred on 
European soil.
    Today a new generation of political leaders, soldiers, 
sailors, airmen, diplomats on both sides of the Atlantic, are 
determined to uphold that legacy.
    I want, before I start talking a little bit about the NATO 
summit, first of all, Senator and all of your colleagues, to 
thank you and the committee for the close bipartisan support 
that you have offered us on NATO. I remember very well the 
first time I came to call on you, just after I got my job, and 
you told me that we should work together to keep this alliance 
strong. The sense of bipartisan teamwork that I think has taken 
place since then is very much a testament to you, certainly, 
and we have tried our very best to live up to that as well.
    We have tried to meet the requirements that you set for us, 
and our staffs have worked extremely closely together to 
fulfill the requirements through briefings and reports to the 
committee on the new Strategic Concept and on issues that are 
very important to the summit.
    I would also say that, for me, anyway, it is a very 
important moment to follow Senator Kyl and his testimony 
because during the NATO enlargement debate, as he said, some 90 
Senators agreed with his amendment laying out clear criteria 
for NATO's updated Strategic Concept.
    My message is simple, which is we heard what you had to 
say, we noticed 90 votes, we thought the Kyl amendment was 
actually an excellent way to think about the future of NATO, 
and we took the criteria that had been established by Senator 
Kyl and by his colleagues as our own. I hope that when you see 
the new Strategic Concept unveiled this weekend that you will 
be satisfied that we have met the benchmarks.
    He talked about six of them and, of course, there are four 
more. We have taken each one of those as a very important part 
of our work.
    In my testimony today, if you would allow me, I would like 
briefly to just touch on three questions. First is what are our 
goals for the NATO summit and how do they serve U.S. national 
security interests. Second is what does the Kosovo conflict 
mean for the NATO summit and the alliance more generally--the 
conversation that you all were just having. And what is our 
longer-term strategy for Southeastern Europe and what role, if 
any, can NATO play in that strategy?
    Mr. Chairman, our goal for the summit is to prepare NATO to 
meet the challenges of the 21st century. In doing so, we have 
been conscious of the need not to alter or to change NATO's 
core purpose that you all spoke about, which is collective 
defense, because its commitment to collective defense is what 
underlines its success.
    President Truman had it right in his speech at NATO's 
founding on April 4, 1949. He defined the alliance's purpose in 
terms of defending the common territory, values, and interests 
of its members. To me that made sense when he said it and it 
seems to me that it makes sense today.
    If NATO's core purpose has not changed, the security 
environment that we confront certainly has. I think Senator Kyl 
did a good job of laying out what has changed about the 
security environment.
    Today, we have to be prepared to deal with a world in which 
the threats to the alliance can come from new directions and 
where conflicts beyond NATO's territory can have an impact on 
our common values and our common interests.
    NATO, in our view, must be able to do as good a job in 
meeting the challenges of the 21st century as it did in meeting 
the challenges of the 20th century and the threats of the cold 
war.
    When we talk about the future of NATO, it is not because we 
want to change NATO's course but, rather, because we want to 
assure that the alliance is well equipped to take on the 
challenges of the future.
    Now, based on these ideas, Secretary Albright and Secretary 
Cohen have worked together since last December on a seven part 
package of initiatives that we hope will come out in this 
summit. These seven initiatives are the following.
    First is a vision statement. I think it is very important 
that publics get a chance to consider what it is that is in the 
future of NATO--not only publics in the United States but 
publics around the alliance--a new Strategic Concept, an 
enhanced open door policy, a defense capabilities initiative, 
an initiative on weapons of mass destruction, a package of 
initiatives to enhance our work with partners, and something on 
the European Security and Defense Identity.
    These initiatives are designed to create an alliance 
committed to collective defense, but also one that is even more 
capable of addressing current and future risks, strengthened by 
and open to new members, and working together with partners to 
enhance security for the Euro-Atlantic area.
    We have heard a lot of debate about this and some say of 
course it would be better for the United States to stick to the 
status quo, that that would be the best thing for America's 
interests.
    Other people say that NATO is a relic of the cold war and 
ought to be put out of business.
    For me, and I think for all of you, in listening to you, 
that ignores a key lesson that we learned from the history of 
the 20th century, which is that we need a strong military 
alliance between the United States and Europe and it must focus 
on preparing for the threats of the future, not the threats of 
the past.
    This is why the package of initiatives, these seven 
initiatives, are so clearly in the national interest.
    Mr. Chairman, given the conversation that you all just had, 
I hope you would allow me briefly to touch on just a couple of 
parts of this package because I think our views would be of 
interest to you and your colleagues.
    First, though Assistant Secretary Kramer will have more to 
say about this, I think it is worthwhile to talk for a moment 
about the strategic concept. It is important, I think, to 
remember what kind of document this is and what kind of 
document this is not, and what it will do and what it will not 
do.
    As you have put the President's letter in the record, I 
hope I can quote from it here. As the President said in his 
letter to Senator Warner, ``the Strategic Concept will not 
contain new commitments or obligations for the United States 
but, rather, will underscore NATO's enduring purposes outlined 
in the 1949 North Atlantic Treaty.''
    What this document does do is provide a new framework and 
political-military guidance that will create incentives for 
allies to build more flexible forces capable of meeting the 
broadest range of possible threats to our common security, the 
threats that we must confront in the 21st century.
    Senator Warner, I know we will talk more about it, but we 
believe, given what we have achieved in the strategic concept, 
it is time to lock those gains in. If I might say, I am sure 
Assistant Secretary Kramer would agree that we have to apply 
the lessons of Kosovo. But we ought to see if we can capture 
what we have gained in the Strategic Concept and then apply 
those lessons.
    I would say something also about mandates. You have been 
very eloquent on this subject, Mr. Chairman.
    There is nothing in the Strategic Concept that will require 
NATO to have a United Nations mandate for it to act. We would 
not accept that, as you and I talked about the other day.
    Now the 1949 treaty acknowledges the important role of the 
United Nations in international security and it reaffirms 
everyone's faith in the principles and purposes of the United 
Nations.
    To translate it into policy, this means that, while it is 
obviously preferable to have a U.N. endorsement of NATO 
actions, the alliance must retain the flexibility to act on its 
own.
    Finally, just let me say a brief word about our open door 
policy, about which Senator Lugar talked.
    I know, Senator Smith, that when we were in Independence, 
Missouri, welcoming the three new members some weeks ago, we 
really recognized the historic event in which we were 
participating. And at a time when we're dealing with 
instability and conflict in Southeastern Europe, it is 
important to step back and realize that Central Europe is now, 
by and large, safe and secure, and that NATO enlargement is a 
large part of that success story.
    Based on the benchmarks that NATO set out in Madrid in 
terms of judging candidates' countries in terms of their 
performance and the alliance's own strategic interests, we do 
not believe that this summit is probably the right time to 
extend further invitations for additional new members.
    But like Senator Lugar, we believe that the situation today 
only underscores the need to reaffirm our open door policy both 
in word and in deed. The commitment will be evident later this 
week, not only in what we, as an alliance, say but through the 
issuance of a new membership action plan, about which we talked 
last week, a practical plan that goes beyond anything we have 
done in the past in terms of using NATO's talent and expertise 
to help those countries help themselves become the strongest 
possible candidates in the future.
    Mr. Chairman, if I might just take two moments, I would 
talk a little about Kosovo and the NATO summit.
    I think the best way to describe this is as we prepare NATO 
for the 21st century, we still have some 20th century work to 
do. The summit will be largely a working meeting with Kosovo as 
a central theme.
    We still plan to commemorate NATO's 50th anniversary 
because we have very much to honor on that score. But the first 
focus has to be on supporting NATO's forces that are now in 
action in the former Yugoslavia.
    The conflict in Kosovo has underscored why we still need a 
strong alliance between the United States and Europe, and it 
underscores why NATO needs to be more flexible and capable of 
handling a broad range of tasks.
    As far as I am concerned, the Kosovo crisis has shown the 
need for a new Strategic Concept. It showed the need, as 
Senator Lugar said, for a vibrant and real open door policy. It 
underscores the importance of the defense capabilities 
initiative and it demonstrates the requirement for NATO to have 
a close political and military relationship with all of its 
partners.
    Mr. Chairman, no one on either side of the Atlantic who has 
been involved in deliberations on Kosovo can imagine how we 
could have responded effectively without NATO. I think that was 
Senator Biden's point. And if we did not already have a plan to 
modernize NATO to meet such a crisis, we would be having to 
make such a plan today.
    At the same time, I think it is important to say that our 
goal, of course, is not to involve our alliance in new 
situations, such as Bosnia and Kosovo. Our goal is to prevent 
the need for having to do this.
    We think that the new Strategic Concept does not commit us 
to act in new Kosovos any more than the old one did, but the 
more prepared we are to respond rapidly and effectively to 
outbreaks that threaten Europe's stability, the more likely it 
is that we will be able to deter such outbreaks.
    Finally, let me spend a minute, if I could, on our long-
term strategy for Southeastern Europe.
    What we are thinking about this point can really be summed 
up in two thoughts. First is that NATO must prevail in the 
Kosovo conflict. Second is that we must move, working with the 
Europeans, to implement a long-term strategy to stabilize the 
region and to integrate it into the European mainstream.
    As President Clinton said last week in San Francisco, and I 
quote, ``If we truly want a more tolerant, inclusive future for 
the Balkans and all of Southeastern Europe, we will have to 
oppose Milosevic's efforts and at the same time offer a better 
vision of the future, one that we are willing to help build.''
    We never again want to fight in this part of Europe. So we 
must insure that we never have to again.
    As Secretary Albright said recently, Southeastern Europe is 
the critical missing piece in the puzzle of a Europe whole and 
free. The vision of a united and democratic Europe is critical 
to our own security.
    The first requirement is to focus on a strategy aimed at 
transforming this region from Europe's primary source of 
instability into part of its mainstream. In this regard, I 
think we should all call attention to the plans on Southeastern 
Europe's stability that have been put forward lately by 
Germany, by Turkey, and by Greece. We welcome these kinds of 
forward looking propositions.
    As the Germans really rightly noted in their proposal, a 
strategy for this region must have several components--
political, economic, and security. It will eventually require 
the extensive involvement of many key institutions, in 
particular the EU and the OSCE, and NATO as well.
    But I would say that NATO's role is crucial because 
security is a prerequisite for any stabilization program.
    Now come this weekend, I think we will only be able to take 
the first steps toward building a broad, long-term Southeast 
Europe initiative at this summit. But we will keep you informed 
as we move ahead because this will involve, obviously, lots of 
consultation, involvement, and support of the Congress if it is 
to succeed.
    But at this summit, at this weekend, we want to adopt 
regional stability measures that the alliance can implement on 
an accelerated basis which would include more frequent NAC 
consultations with countries of the region, promotion of 
regional cooperation in the Europe-Atlantic Partnership 
Council, better coordination of security assistance through the 
Partnership for Peace, and regionally focused PfP activities 
and exercises.
    Our goal on this weekend really is to promote three themes: 
one, NATO's unity and its determination; two, NATO's adaptation 
to the 21st century; and, three, some commitment, some vision 
of how we want to move forward in Southeastern Europe to the 
future.
    I thank you very much and, with your permission, I would 
turn it over to my colleague, Assistant Secretary of Defense 
Kramer.
    [The prepared statement of Mr. Grossman is in the appendix 
on page 50.]
    Senator Smith. Secretary Kramer, welcome.

 STATEMENT OF HON. FRANKLIN D. KRAMER, ASSISTANT SECRETARY OF 
           DEFENSE FOR INTERNATIONAL SECURITY AFFAIRS

    Mr. Kramer. Thank you very much, Mr. Chairman.
    Good afternoon to all of you.
    As does Assistant Secretary Grossman, I have a fuller 
statement which I would ask to have entered into the record.
    Senator Smith. Without objection.
    Mr. Kramer. I would just like to summarize a few points.
    As you have said, Mr. Chairman, and as others have said, 
NATO, at bottom, is a military alliance. Kosovo proves that and 
Bosnia proves that. What we will seek to do, both through the 
adoption of the Strategic Concept but, more importantly, in 
actual activities by the alliance is to enhance the 
capabilities of the alliance to deal with some of the issues 
that Senator Kyl outlined in his testimony and as are set forth 
in the Kyl amendment.
    Let me talk about three particular areas that the alliance 
will prove this weekend. These are issues that have been pushed 
particularly by Secretary Cohen with the defense ministers but 
have also been done with the full support of the entire 
administration.
    The first is called the defense capabilities initiative, 
which focuses on conventional forces. The second, usually known 
as the WMD initiative, focuses on weapons of mass destruction. 
Then the third area, which does not have a specific initiative 
but has elements in each, is the area of terrorism.
    In the defense capabilities initiative, we will seek to 
enhance the mobility of the alliance, the lethality, if you 
will, its precision guided engagement, its survivability of 
forces, and its sustainability. Those are all concepts that are 
actually included in the Strategic Concept itself, which gives 
the guidance to the military planners.
    The WMD initiative focuses, of course, on chemical and 
biological weapons and also on nuclear weapons, on problems 
that we have seen in different areas of the world--the attack 
on Japanese subways, the attempted attack on the World Trade 
Center, the nuclear explosions in Pakistan and India.
    With respect to terrorism, we will try to enhance 
intelligence sharing, we will undertake greater activities with 
respect to force protection, we will seek to have the 
capability to respond to terrorist attacks, and we will seek to 
have the ability to respond to the consequences of any such 
attack.
    The allies I think are willing to work with us on this. We 
have heard Prime Minister Blair say that Europe needs to have 
capabilities, not just the ability to talk about issues. We 
have heard Prime Minister Dalima of Italy say it is unfortunate 
that the allies spend 60 percent of what the United States 
spends but only get 10 percent of the capability.
    We want to turn that around with these efforts.
    There is some reason to believe that the allies will do 
that. The United Kingdom, as you know, has already had a so-
called strategic defense review. It has put into place actions 
to make its forces more mobile and more capable of fighting in 
the 21st century.
    The push for a European security and defense identity, as 
promoted by Prime Minister Blair, focuses on capabilities 
precisely in accord with the kinds of things we want to promote 
in the alliance under the defense capabilities initiative. So 
if we can keep the two in harmony, we will have the Europeans 
going in the right place.
    In Kosovo, because of the fact that we are a military 
alliance and need to have these capabilities all come together, 
we have had extremely good cooperation among the United States 
and the allies. We are there in Kosovo together. We are all 
performing the mission. But, as the committee has said, a 
significant portion of that mission does fall on United States 
forces.
    There are about somewhat over 700 airplanes in the allied 
air campaign; in round terms about 200 of them are allied. This 
means that there are 500 U.S. planes.
    Depending on how you count, whether it is attack missions 
or support missions, the United States nonetheless does the 
predominance of the missions--maybe about 55 percent or so of 
the attack missions and a little less than 70 percent of 
support missions.
    So there is a lot yet to be done in order to bring the 
allies along. One of the real benefits of the Strategic 
Concept, as I said, and of the summit itself is the approval of 
these various initiatives that should enhance those 
capabilities.
    As all of you have said and as I will underscore, we need 
to win in Kosovo. If the alliance cannot preserve the values 
that it stands for, if it cannot bring peace and democracy to 
Kosovo, then it does not have the capability through its 
military forces to do what it has committed to do. So we need 
to prevail.
    With that, let me stop here and take your questions.
    [The prepared statement of Mr. Kramer is in the appendix on 
page 53.]
    Senator Smith. Secretary Kramer, picking up on the point 
with which you ended, it seems to me that NATO unity is being 
stressed to a point that it may have priority over NATO 
victory. I say this out of a sense of concern that I have 
coming from news accounts of the operational conduct of this 
war.
    It seems to be war by committee and perhaps an operational 
dinosaur we are inventing. So my greatest alarm about the 
Strategic Concept being put in concrete is whether or not there 
are some operational things to be learned that should be 
included in it.
    What you are telling me, I think, Secretary Grossman, is 
that this is general enough that it does not preclude some 
operational changes later. Maybe you can comment on those 
observations on my part.
    Mr. Kramer. Let me comment on the last and then come back 
to the first.
    I think you will agree, having had a chance to look at it 
all, that the Strategic Concept itself does not preclude having 
a whole variety of different approaches to operational 
decisions. The Strategic Concept gives broad guidance as to the 
kinds of things that military planners should plan for, as to 
the kind of things that the alliance should do.
    Then we also have a chain of command, which has just been 
revised and approved, and then we have the actual conduct of 
operations. So the Strategic Concept is in no way preclusive. 
It is actually quite flexible.
    With respect to the operations themselves, I don't know 
which news stories you read or did not read. General Clark, 
together with Secretary Solana, has very good authority with 
respect to the vast majority of targets and targeting as to 
which he wants to undertake. There are some sensitive targets 
that are looked at, not in NATO but by heads of State 
effectively. This is not too surprising in a democracy. Even in 
this small group of five Senators there were differences of 
nuance and approach with respect to some of these things. We 
have 19 countries--19 democratic countries--that work by 
consensus.
    Senator Smith. My specific concern, for example, is about a 
story I heard where General Clark has asked for 2,000 targets 
but where the allies can agree on 200. Is there any truth to 
that?
    Mr. Kramer. That story I have never heard and I don't think 
it is true.
    What I would like to do, not in this hearing but in a way 
that I can actually give you the full information, is to sit 
and talk to you about what we have been doing. I don't think we 
ought to go into targeting issues in an open session.
    Senator Smith. I understand that. But I am trying to 
express a very genuine concern that I have as to whether 
operationally we can win.
    Is unity among our allies the goal or is winning the goal, 
because I, frankly, think they should be inseparably linked but 
I am not sure they are?
    Mr. Kramer. The President has said very clearly that we 
have to prevail. I think all the allies have said that we have 
to prevail. As I said, General Clark, in general, has very good 
operational flexibility. I don't want to leave the impression 
that there have not been any differences over any targets 
because there have been. As I said, I am very happy to discuss 
that with you privately.
    Senator Smith. And there is flexibility remaining within 
the Strategic Concept that we can make those adjustments later?
    Mr. Kramer. Yes, sir.
    Mr. Grossman. If I could just comment on that, I thought 
one of the things obviously in the conversation between Senator 
Warner and Senator Kyl that was absolutely clear was that we 
have to be able to learn the lessons of Kosovo--just like you 
would learn the lessons of anything else.
    I noticed in that conversation Senator Warner said that 
here we are going to put this thing in stone.
    I don't see how we could possibly do that. Our objective is 
to try to make progress on the Strategic Concept and lock in 
the gains. I think Assistant Secretary Kramer would say that we 
have a lot of gains in that Strategic Concept. Then, if there 
are lessons to be learned, we will certainly learn them and 
through the alliance mechanisms they can be put into all of the 
alliance documents.
    So I think, as you all came to the end of your 
conversation, this difference is really a small one. We will 
obviously not be blind to lessons learned.
    Senator Smith. That is encouraging.
    I have another comment. In part of my opening remarks I was 
trying to reflect what I think is happening in the country. If 
you read opinion polls, there is a slight majority that 
supports what we are doing. I think that is borne out of a 
humanitarian instinct in the American people. But I will bet 
prior to this attack on Belgrade, there were not 2 in 10 
Americans that could tell you what NATO meant.
    I'll bet a lot of them can now, and they are starting to 
ask the question what does this mean in the future. I really do 
fear that it could take root in this country that, but for 
NATO, we would not be in this fight and that, because of NATO, 
we cannot win this fight.
    That is why I plead for our country's sake, for the 
alliance's sake, for the future's sake, that we win this.
    Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    I have several questions and they come off the comment that 
the chairman just made. He indicated that unity in winning and 
unity in victory have to be viewed separably. I would 
respectfully suggest that we cannot win without unity.
    By this I mean in the literal sense. I imagine the very 
consensus that may be building, and if not consensus, 51 
percent of the American people, whose support for what we are 
doing in Kosovo, would evaporate to 10 percent if the President 
had to stand there and say we are going it alone. We are going 
into Kosovo with one or two other of our allies and that is how 
we are moving.
    I suspect that would mean the end of any consensus or any 
congressional support for any operation in Kosovo.
    So the good news is we have an alliance. The bad news is we 
have an alliance. I mean this literally, not figuratively. It 
is the good and the bad news.
    So every President, I suspect--I should not say every--the 
last President, this President, and the next President at least 
are going to be faced with the conundrum of doing what our 
military or our political people think is the right thing to do 
and possibly losing the alliance or doing 80 percent or 90 
percent of what we think we should do and keeping the alliance.
    I remind my World War II veteran friends, for whom I have 
great admiration, who talk about how you just have to go to 
win, I would remind them, if I am not mistaken, that the 
British were swimming in the English Channel--literally 
swimming in the English Channel--with thousands of small 
dinghies crossing to take them back home before America even 
was roused to respond.
    We had a President who was told that if he moved on 
providing materiel for our friends in Europe, he would be 
impeached.
    So this is nothing new. This is nothing new here, this idea 
of having to get consensus.
    I want to remind people that Dwight Eisenhower--I can never 
understand as a student of history why people thought he would 
not be a good politician. I can never understand that. He had 
kind of your job in the extreme, Marc. He had to keep together, 
can you imagine what kind of politician it took to keep 
together Montgomery, de Gaulle, Churchill and Roosevelt? I am 
serious. I am deadly earnest.
    I could recite for you as a student, not as a participant, 
of that era probably a half dozen significant military 
compromises that the United States military made in World War 
II because they could not get the alliance to sign on to the 
approach.
    So I don't think we should be surprised by what is 
happening.
    I met at length with General Clark this weekend. I can 
answer the question in public for the chairman. The 2,200 
figure is a totally unreliable assertion relating to those 
targeting disagreements.
    There are targeting disagreements. I would put them, if you 
want to give them a notion, in the category of 10 targets and 9 
agreed upon, as opposed to 2 to 2,000.
    I might add, I will just say what I can say publicly, there 
was disagreement on going after the radio and television 
capacity of the Serbian Government. We were pushing hard for 
weeks. Others in the alliance thought that was a bad idea.
    We bombed it last night.
    It took a while to get there. It takes a while to get this 
consensus, but that is the nature of the alliance.
    So it does not mean that we should not have some degree of 
trepidation about entering into use of force with the alliance, 
where we may find ourselves at odds. I suspect if the President 
had said at the outset of this: by the way, we are only going 
to use airpower but here is our plan for ground forces if, in 
fact, it does not work, I will not name them publicly but I can 
think of three allies who would have said oh, oh, if you even 
mention that, don't count me in on anything--we're out. We're 
out, front end, we're out.
    Even the mere mention of the possibility of ground forces, 
just the mentioning of them, would have done that.
    I have learned a lot about the Balkans over the last 10 
years and a little bit about Napoleon, though not as it relates 
to the Balkans. There is a quote attributed to Napoleon. He 
said ``that you have to act and then see.'' That's kind of 
where we are right now. I am paraphrasing. You take action and 
then see what the next step is.
    In this modern world, it is awfully hard for us to think 
that we could have had a full battle plan countering every 
contingency in advance with 19 members signing on at the front 
end to do anything.
    So this is going to be a little ``see'' for us, which leads 
me to my question as the yellow light goes on. It is this: the 
idea, Mr. Secretary, of the United Nations having a veto power 
over NATO alliance decisions, as the French and others have 
been pushing. First, how urgently is that being pushed still? 
How important is it to the allies? I think if it occurs, I'm 
out. I mean, I'm out. I would not support NATO.
    Second, I do not understand the correlation of 
responsibility between the European Security and Defense 
Initiative and the EU's Common Foreign and Security Policy. I 
don't understand that. Either I don't know how they relate, and 
no matter how they relate, are they both subordinate to NATO in 
that NATO gets the right of first refusal?
    To summarize, in terms of this new strategic initiative, 
(a) where is the U.N. in the deal and (b) are both the European 
Security and Defense Identity and the EU's Common Foreign and 
Security Policy subordinate to NATO and how are they different 
from one another?
    Mr. Grossman. Thank you very much. Let me try to answer 
both questions.
    First of all, in terms of the United Nations, as both 
Secretary Kramer and I said in our testimony, we will not 
accept any proposition which would require a United Nations 
blessing or such as a requirement for NATO to act. I think that 
is not the position of the United States and I know it is not 
the position of both of you because we have talked about this a 
lot.
    In answer to your specific question, I would say--this is 
my description--I would describe the consensus inside the 
alliance as follows. It is that a United Nations Security 
Council resolution is desirable, but is not necessary because 
there are going to be times when you would act without a 
Security Council resolution, just like we are today in Kosovo.
    The difficulty which we are having, which you rightly point 
out, is trying to write that down and figure out how to put 
that into words.
    What we have said to all of our allies is the less said 
about this the better. Let's not have you try to put in your 
principle and us try to put in our exception. Let's just say 
that what has worked since 1949--and I have become a big 
believer in carrying around my NATO handbook so I can remember 
what the treaty says. The treaty talks about the principles and 
purposes of the United Nations. The treaty talks about the 
importance of the Security Council in international stability. 
But since 1949, we have been able to do this job in the right 
way from NATO.
    So we are saying let's keep to that.
    There are countries, Senator, that want to do more, that 
would like to have the United Nations be more involved. All I 
can tell you is that both of us certainly at this table and all 
of our colleagues have really resisted that.
    Senator Biden. As a practical matter, they can get involved 
now. If the French or anyone else wants the U.N. in, they can 
dissent from the consensus. If the U.N. does not go along, they 
can say that the NAC, that we're not in. Let them make that 
decision.
    Mr. Grossman. Right. That is why I keep repeating to 
everybody the fact that if there could be a Security Council 
resolution it would be a very desirable thing.
    But, you know, one of the most interesting things that has 
happened in this debate is that for many, many months people 
would say that the era of vetoes is over. Don't worry about 
this anymore. Then all of a sudden, you have the Chinese veto 
UNPRADEP's participation and presence in Macedonia just three 
or four weeks ago.
    I think that has been one of the most powerful arguments on 
our side of this that has come along. Here we had, in the midst 
of all of this trouble and difficulty, and for a reason totally 
unrelated to the Balkans--UNPRADEP goes away.
    So we have said you cannot do this. NATO has to be prepared 
to act, but recognizing that we are not saying the United 
Nations is an irrelevant body, shouldn't have a connection to 
NATO, shouldn't be talked about in the various documents. But 
the key issue here is that I don't think anyone else would 
support the requirement for a United Nations resolution or 
mandate for NATO action.
    On your second question, and here I hope Secretary Kramer 
will help me, my short answer to your question about ESDI, 
Senator Biden, is what you said in your speech the other day at 
Harvard. This is to say that we have always, every one of us, 
supported the fact that the Europeans ought to do more in their 
own defense. We think the European Security and Defense 
Identity is a good thing. In fact, for over a year the two of 
us have worked to have the Europeans make ESDI an important 
part of the summit.
    In fact, you will remember that that was the seventh of the 
seven initiatives. But we have said this is not USDI, it is 
ESDI. The Europeans have to really work on this.
    So we welcomed it and we want them to be a part of it. But, 
just as you said in your speech, we have put down several 
markers that we think are really important.
    First, we do not think there ought to be duplication of 
effort here. We spend enough money on defense, all of us, and 
we think there is already a structure for this and we ought to 
try to stick to it.
    Second, we don't want to do anything to decouple America 
and Europe through ESDI. That is a hugely important subject and 
I will come back to it when I do CSFP.
    Third is no discrimination. As Senator Kyl said, ESDI which 
became a European Union military force that excluded Turkey, 
Norway, and now many of the other countries that have joined 
NATO, I think would be a very big disadvantage for us.
    As we have pointed out since Independence, Missouri, 8 of 
the 19 countries are now not EU members. So ESDI is an 
important thing. But I agree with you that it has to be done 
right.
    In terms of the Common Foreign and Security Policy, I guess 
that is really for a European to answer. But let me give you my 
view.
    I don't think the Europeans have yet really figured out how 
the Common Foreign and Security Policy will relate to defense 
policy. Prime Minister Blair has talked about this. President 
Chirac has talked about this. When the British and French met 
together at Saint Malo, they tried to develop some initiatives 
here.
    But what we have been saying is that this has to be a 
transatlantic effort, that ESDI has to take place inside of 
NATO. This is not to say, as you and I discussed the other day, 
that there are not countries who would like the European Union 
to do more autonomously. That is why, just to end, we agree 
completely with you. Although I am sure there will be other 
diplomatic ways to say it, when it all comes down, NATO ought 
to have a right of first refusal.
    There are going to be times when the European Union might 
want to act--in Albania, for example, a couple of years ago. 
But NATO ought to have a right of first refusal. Then, if the 
European Union would like to do something, if it can do 
something, we ought to be in favor of that.
    Senator Biden. Thank you very much.
    My time has expired--has expired for a while. Thank you, 
Mr. Chairman.
    Senator Smith. Senator Dodd.
    Senator Dodd. That has been very instructive and very, very 
worthwhile.
    First of all, thank you, Mr. Chairman for holding this 
hearing today. It is very appropriate with the gathering of the 
heads of State here in Washington.
    It was, I guess, right about this time, actually I guess a 
few years before April 4, 1949, when a prime minister of Great 
Britain was in Fulton, Missouri, I think it was, and it was 
said from Stettin in the Baltics and Trieste in the Adriatic an 
Iron Curtain has descended across the continent.
    For many, many years there we saw the effort to move that 
Iron Curtain line West, and it was in no small measure the 
accomplishment of this alliance which resulted in the failure 
of that effort.
    In fact, who would have believed even a little more than a 
decade ago, or a decade ago, that we would be sitting and 
talking about our allies on so many issues--the Middle East, 
Rambouillet, Russia. Imagine Poland, Hungary, and the Czech 
Republic being members of NATO.
    We accept this now in such a routine fashion. And yet, if 
someone sat at that table 12 years ago and suggested that by 
the end of this century that we describe what Europe would look 
like, I suspect there would have been a lot of skeptics, to put 
it mildly--on this side of the dais as well as that.
    So in the dark moments of where we are, at a particular 
fact situation, as we look at how we are going to resolve this 
particular issue, I think it is terribly important, this 
arrival. Some say you should not celebrate, that this is not a 
time to celebrate because of events in Kosovo.
    I disagree heartily. I think this is a time of celebration, 
of a remarkable alliance, and we should not shrink from that. 
In fact, I think as part of the celebration recognizing 
previous accomplishments and defining future roles may, in 
fact, contribute to convincing some people in Belgrade and 
elsewhere that there is a common determination and resolve here 
not to back away.
    So I am not for fireworks and the like. Don't misunderstand 
me. But I don't think there ought to be any sense of apology 
during this gathering that is occurring.
    Mr. Chairman, I was at NATO headquarters back a week or so 
ago and got a full briefing from Wes Clark, our Ambassador, and 
various other Ambassadors from NATO countries. This person's 
name will go unmentioned, but a senior military officer in the 
United States Army and I had a wonderful conversation. By his 
admission he is getting on in years, as he described it.
    Senator Biden. You're narrowing the field there.
    Senator Dodd. Well, he's not that senior. But he was 
telling me this. He said, you know, I was thinking to myself 
when I came on to this job that this is not what I was trained 
to do. He said I was trained to believe I had one commander-in-
chief, that there were going to be certain instructions and a 
certain rule book that I followed, and that everything that I 
was trained to do was geared to that. Now, all of a sudden, he 
said, I am thrown into this situation where I am dealing with 
18 other countries, dealing with different military structures, 
and my commanding officer is from a NATO country. This is very 
confusing. He said it was disturbing to him and upsetting.
    Then he said he woke up the following morning and described 
himself looking in the mirror at himself. I will call him 
Harry, though that is not his first name. He looked into the 
mirror and said to himself: Harry, welcome to the 21st century, 
and if you are not willing of understanding how this is going 
to be in a sense, then you really don't belong here doing this. 
This is going to be, in a sense, I think how we are going to 
respond.
    Some people once described that the end of the 19th century 
occurred at Verdun, and that some day someone might look at 
this particular period--or even the Persian Gulf conflict, 
which was a multinational effort that President Bush 
orchestrated--as sort of the end of the 20th century and the 
beginning of the 21st century and how we deal with something 
less than a bipolar world, where you have Serbian type 
situations which require the collective activity of an 
alliance.
    We had better figure out how to do it because the 
alternative is unacceptable and won't work, in my view, 
politically or otherwise.
    There will be circumstances, I suspect, where we will have 
to act in our own self-interest because others may disagree. 
But I am hoping that will be more the exception rather than the 
rule because I don't think that will sustain itself for very 
long.
    So, aside from dealing with the particular fact situation 
in front of us, it seems to me that it is going to be 
critically important that this work for a lot of reasons, not 
the least of which is the future of this alliance or alliance 
reactions to these kinds of situations.
    Having said that to you, let me raise an issue that Senator 
Bob Bennett of Utah and I have been working on a lot. I raised 
it when I was in Brussels. It is the Y2K issue and as it 
relates to the NATO structure.
    We were talking about institutions and organizations being 
Y2K ready. Obviously, in integrating 19 nations, some of which 
have varying degrees of success and compliance with this issue, 
the obvious question I have is could you give me an assessment 
of how NATO is doing on Y2K issues? Are we going to be a 
compatible alliance and organization in 254 days, which is what 
we have left between now and January 1, 2000?
    Mr. Kramer. The answer is I think we will be all right in 
NATO. You said yourself that the different countries are 
achieving full compliance at different rates and that is 
certainly true in NATO.
    I have not gone back recently--we sort of keep charts on 
these things, as you would imagine, and actually looked at the 
charts--but I am guardedly optimistic that we will be able to 
conduct operations over the millennium date change and that any 
residual problems will be solved expeditiously.
    The second point on that is very important, again, as you 
implied, to carry back to not only NATO but also to the 
military establishments of these countries and beyond that. 
Even if one just looks at a security issue, there are lots of 
nonsecurity activities that dramatically affect how your 
military is operating.
    In this regard, again, there are widely disparate levels of 
achievement in the different countries.
    We have a huge effort in the Pentagon now not only 
internally but also to work with other countries, as does the 
whole Government, and we are really pushing forward.
    In general, I expect that we will have pretty good, but not 
perfect, success. But I don't think you need to be overly 
concerned from a military operational standpoint but I think 
there will be a satisfactory result.
    Senator Dodd. Just quickly, Mr. Chairman, has there been 
some product that this special committee that Majority Leader 
Lott and Leader Daschle formed where we could get some sort of 
report--however you want to transmit it to us, perhaps 
classified to some degree--where we could get some up to date 
as possible assessment of how this is going?
    Mr. Kramer. I think that is a very good idea.
    Why don't I arrange to get an assessment. If we can give it 
to you unclassified, we obviously will. Then if it needs more 
detail, we will do that. There are people who are working on 
this every day both in the Pentagon and throughout the 
Government. I am not one of them. I am just giving my best 
understanding. We will bring it to you.
    Senator Dodd. By the way, when I talk about this, they were 
upbeat about it and how things were progressing. I met with the 
ministry of defense in France about this same issue and they 
were very positive about where they are. Although they are not 
part of the NATO military structure, they were fairly confident 
from their perspective that things are working well.
    I am not suggesting by my question that I know something 
other than that at all, but it might help to have that report.
    Mr. Kramer. We will bring that to you, Senator.
    Mr. Kramer. May I comment for a minute, Mr. Chairman, on 
the broad point that the Senator made, in fact that all of you 
have made?
    I have more or less worldwide responsibilities, so I have 
not only Europe, but the Middle East, Africa, the Far East, et 
cetera.
    In all of these areas, it is our preference, if we can, to 
work with our allies and friends. That implies coalition, a 
word that, as you correctly suggest, is often associated with 
the Gulf War.
    The Gulf War or, as Senator Biden said, World War II, 
involved a lot of political activities that helped shape 
military activities, all of which were ultimately successful. I 
can give you a list from my own knowledge of a number of 
operations in World War II that were precisely as you say, 
Senator, and in the Gulf War itself. One of the things that we 
properly credit the President with was keeping the coalition 
together.
    Well, the reason he got credit was because it was not so 
easy to do.
    We also have a coalition here in NATO and we want to work 
that. It is not surprising that it takes some work.
    There is another aspect we also, all of us--myself, 
Secretary Grossman, all of you--have worked on--the issue of 
having the Europeans do more. As they do more, naturally they 
want to have a say. With all due respect, I think Prime 
Minister Thatcher when she said what she did--I am happy with 
the duty to lead. I am not so sure that you can get someone to 
say it is their duty to follow, which is more or less what she 
said.
    We have to create the conditions in which they find it 
appropriate to follow the lead. We should not shirk from 
leadership. We should assert it.
    One of the things that we worked on very hard which was not 
mentioned here, which I want to point out to you, is that in 
1996, we had the Berlin Ministerial. We set up an arrangement 
for ESDI. The code words were ``separable but not separate.'' 
What this meant was that NATO would be the organization of 
choice. But when NATO chose not to be engaged for one reason or 
another--and usually it was thought that it was because the 
United States would be involved elsewhere and, therefore, could 
not engage--the allies could use the NATO framework in a 
separable fashion to do what they had to do themselves.
    We said that we supported it. I worked on this a great deal 
personally and I think it is a very good solution. It is the 
kind of solution that keeps NATO in the forefront of the ESDI 
effort.
    So you can both have ESDI and you can have the European 
Union, as appropriate, or the Western European Union.
    Senator Biden. Is Albania a representative example of that, 
when the Europeans moved not in a formal sense? I mean, is that 
conceptually the kind of thing we are talking about?
    Mr. Kramer. It is, with the exception of the fact, Senator, 
that they did not do the so-called Operation Alba, under NATO.
    What is a good example of that, actually, though in a 
certain sense not quite, either, is the so-called Extraction 
Force, where it was under NATO command but the United States 
did not have people in the Extraction Force, you will recall. 
My round figures suggest there were about 2,000 or 3,000 
European troops that went down to support the then KADOM and 
extract--it is not quite the same because it was still with Wes 
Clark in the chain of command.
    But they are moving toward it. I don't want to give them 
too much credit. I mean, one of the things that we all properly 
say is they need to do more. That is why Prime Minister Blair's 
statement is so worthwhile, because he said that, too.
    Senator Dodd. Thank you.
    Thank you, Mr. Chairman.
    Senator Smith. Gentlemen, we thank you both.
    Senator Biden. May I just ask one question, Mr. Chairman?
    Senator Smith. Sure.
    Senator Biden. I may have misunderstood you, Mr. Secretary, 
but when you were talking about weapons of mass destruction, 
what did you say? Did you say that the alliance, that in the 
new Strategic Concept, that there was a--maybe you can tell me 
where weapons of mass destruction as an element of this comes 
in?
    Mr. Kramer. There are two things. Let me say, No. 1, that 
the new Strategic Concept includes weapons of mass destruction 
as a problem that must be dealt with, a problem of the 21st 
century. It's not the only one. I also mentioned terrorism, 
some ethnic conflicts and the like, as well as the conventional 
kinds of issues.
    The second thing I said is that there is a specific 
initiative that will be approved at the summit, called, 
brilliantly enough, the Weapons of Mass Destruction Initiative. 
This will commit the U.S. and our allies to work on these kinds 
of issues and to be able to respond to their use.
    This initiative would include some kinds of things that 
have been going on but would intensify others, such as passive 
defense, dealing with the consequences of the use of, say, a 
chemical weapon or a biological weapon.
    Senator Biden. I guess I am getting hung up on respond 
versus information and intelligence.
    In other words, I think it is good if you get what you have 
stated. Am I giving more weight to the change in what has been 
the verbiage in the last couple of weeks?
    I think we were talking about in terms of weapons of mass 
destruction the sharing of information and intelligence as 
opposed to responding to the awareness of a threat that we 
learn as a consequence of the sharing of information and 
intelligence.
    I would like to see the response part. But I'm not sure I 
do.
    Mr. Kramer. In broad terms, there are three parts. First of 
all, there will be a so-called information center, which will 
be the focus. I think you have heard Secretary Cohen talk to 
you about that. That center would be a focus in the first 
instance for sharing information, precisely as you suggest.
    The second part, which actually has gone on for a while but 
which we will intensify, is to increase the capability of 
allies forces to operate, for example, in chemical and 
biological environments.
    A third part will be to work with the allies--we have not 
done this yet, so I cannot give you specifics--to deal with the 
consequences. Let me give an example I have used in talking 
with allies.
    If you have a biological or a chemical weapon used, the 
first responders naturally would be police and firemen in any 
country. If it is a major event, they are likely to be 
overwhelmed. If you are in a smaller country in the alliance, 
the military will be called in, but maybe it cannot do enough, 
maybe it does not have all the capabilities.
    The Czechs, for example, have good decontamination 
capabilities. Maybe they could bring them to another country. 
It is that kind of thing. We have not worked out the specifics, 
but we will get approval to do so.
    Senator Biden. What I thought you meant by response was, to 
take a hypothetical, tomorrow we learn that Milosevic has--I 
should not use that example. Never mind, I won't try to 
quantify it.
    In other words, I mean responding to a threat as opposed to 
a use.
    Mr. Kramer. We do have the capability, as you well know, to 
respond. One of the things in an associated context but not 
that of the weapons of mass destruction initiative that has 
come up--and Secretary Grossman and I, as well as our 
principals and the President have been very strong about that--
is that one reason to maintain the NATO nuclear doctrine as it 
is, is potentially, if necessary, to have that threat out there 
to deter the use of WMD's. I think that is more what you are 
talking about. But that is not this initiative.
    Senator Biden. Mr. Chairman, for the press who are here, I 
am sincere when I say that my reference to Milosevic and to 
weapons was a bad example which I will try to make up because I 
know of no evidence of that. I don't want anyone walking out of 
here saying Biden started asking questions about Milosevic and 
chemical weapons and then withdrew.
    I was trying to think of a simple example.
    Senator Dodd. They probably will do that, Joe, anyway.
    Senator Biden. I just want to say that I know of no such 
capability.
    Senator Smith. Thank you, gentlemen. Both of you have been 
very helpful. We thank you for your time and what you are 
doing.
    Mr. Kramer. We appreciate it and are happy to be here.
    Mr. Grossman. Thank you.
    Senator Smith. We are pleased now to call up our third 
panel, Hon. Stephen Hadley, partner in Shea and Gardner; Dr. 
Stephen Cambone, research director for the Institute for 
National Security Studies of the National Defense University; 
and Dr. F. Stephen Larrabee, senior analyst of the RAND 
Corporation.
    Gentlemen, welcome. We will start with Mr. Hadley.
    We welcome you, sir.

 STATEMENT OF HON. STEPHEN HADLEY, PARTNER, SHEA AND GARDNER, 
                         WASHINGTON, DC

    Mr. Hadley. Thank you, Mr. Chairman. It is a pleasure to be 
here this afternoon with the committee.
    It is hard to know how best to contribute to what has been 
a very useful discussion. I thought what I might try to do is 
the following.
    I have spent time over the last week or so in an effort to 
try to gather what information I could about what actually is 
going to be in this new Strategic Concept and to try to compare 
it to the 1991 version, which is a document I participated in 
preparing, and also with the criteria in the Kyl amendment.
    This is obviously a bit difficult. There is not a final 
version, at least that I have been able to identify. But there 
are still a number of conclusions that I felt comfortable 
drawing which I thought I would share with you this afternoon.
    It is still a very general document. In tone it is not that 
much different from the 1991 document, in terms of the 
generality of its statements.
    On Senator Warner's concern, this 1991 document and my 
understanding of the successor document, are not going to be 
self-executing documents. These are not documents that commit 
to specific operations. They are, rather, a set of general 
principles and those general principles will obviously have to 
be applied to specific cases.
    As to those principles, there appears to be a lot of 
continuity with the 1991 document and, indeed, the key elements 
of that document, which are reflected in the Kyl amendment, so 
far as I can determine, remain largely in the new Strategic 
Concept.
    So, for example, the primacy of collective defense, the 
importance of U.S. leadership, the list of security threats 
that are contained in the Kyl amendment and were discussed in 
the 1991 version, are still there. The need to enhance power 
projection capabilities, especially of our allies, continues to 
be an area of emphasis and even, as Secretary Kramer outlined, 
a greater area of emphasis.
    It continues to reaffirm the importance of the integrated 
military structure. So far as I can determine, it continues to 
talk about the need for a role for nuclear weapons in 
deterrence and the need for greater burden sharing.
    So as I read it, the guts of these principles, so far as I 
can determine, continue to play in the new Strategic Concept.
    There are some new areas of emphasis. Peacekeeping, 
humanitarian missions, so-called peace building and peace 
support, these are new missions. My sense is that there is 
going to be much more discussion of these missions than there 
was in the 1991 version.
    I think we are going to find in that document, when it 
finally comes out, a certain amount of reprioritization in the 
emphasis between safeguarding the freedom and security of the 
members of the alliance versus creating a just and peaceful 
order in Europe. I think, consistent with the emphasis on peace 
operations, peacekeeping, humanitarian assistance, we are 
probably going to see more emphasis on creating a just and 
peaceful order in Europe.
    I think that is, in fact, one of the things that has 
Senator Warner concerned, because that is, obviously, new 
territory. It reaches beyond the notion of NATO as a strictly 
defensive alliance. It is new territory and we are going to be 
doing a lot of learning from Kosovo on that.
    The only thing I would offer to Senator Warner is that we 
are probably only going to begin learning the lessons of Kosovo 
6 months out, and my guess is we will probably start out by 
drawing the wrong lessons--whether we win or lose.
    The learning process is going to take a long time and, 
quite frankly, whether we adopt the Strategic Concept now or 6 
months from now, it is going to be only an interim Strategic 
Concept in the same way that the 1991 version was only an 
interim Strategic Concept. It held up rather well, but the 
truth is Europe is changing too fast to do anything more.
    In any event, that is how it looks to me from what I can 
gather about what you are liable to see when the Strategic 
Concept comes out.
    Thank you very much.
    Senator Biden [presiding]. Thank you, Mr. Hadley.
    Dr. Cambone.

STATEMENT OF DR. STEPHEN CAMBONE, RESEARCH DIRECTOR, INSTITUTE 
  FOR NATIONAL SECURITY STUDIES, NATIONAL DEFENSE UNIVERSITY, 
                         WASHINGTON, DC

    Dr. Cambone. Senators, thank you for the opportunity to 
appear before the committee today.
    Like Mr. Hadley, I went about checking sources and methods 
and seeing what one could learn about the Concept. Indeed, I 
would share with him the same conclusions, that basically we 
have a document which attempts to maintain much of what was in 
the old document but does, indeed, add some significant 
features, particularly with respect to the concepts that he 
outlined.
    I would like to concentrate my remarks on that issue 
particularly because I think that this is an occasion of rare 
moment in public policymaking, when the theory and the practice 
of politics come together. It does not happen often, but it has 
happened here, I think.
    What I believe we are seeing in the case of the Strategic 
Concept for NATO is the basic core idea, which has been 
collective defense of the sovereign member States of the 
alliance as an applique being put over it. This applique is 
drawn from concepts of collective security, concepts that have 
grown up over the course of the last 50 years or so and have 
gained considerable currency, particularly in Europe, though 
less so here in the United States. But there is a core of 
opinion here in the United States who believes that indeed we 
should be evolving our policies in the direction of the 
principles of collective security.
    Now, in principle there is nothing to be feared of 
collective security, as such. But it does take you down the 
path of trying to create international communities. It tries to 
create a community in which there are shared opinions and 
values and, indeed, then tries to enforce in that community 
those opinions and values.
    Now a case like Kosovo raises a very interesting difficulty 
because this is clearly not the kind of activity that fits 
within the international community. So how is one to deal with 
it? We will come back to that.
    From the point of view of collective defense organizations, 
it is the territorial defense, political independence, and 
territorial integrity that one worries about. One views a 
situation like Kosovo with great disdain and disgust. But it, 
by itself, does not motivate necessarily States to intervene.
    A collective Security Concept does. This is the clash we 
have here now, because with collective defense organizations, 
like NATO, they are made up primarily of States like ours--
decent States in which citizenry is sovereign and they are 
themselves decent and are brought to the point of abhorrence 
when they see something like Kosovo. So they do wish to act.
    So how then do we square the principles of collective 
security and the principles of collective defense? We have not 
figured that out yet.
    But the mandate issue is what I believe is the effort to do 
that. There are those who would seek a mandate, precisely for 
the purposes of imposing a collective Security Concept on our 
activities in Europe and, quite frankly, elsewhere in the 
world.
    For that reason, I am of the view that that approach to 
mandate should be resisted and rejected because the United 
States is not, given the sovereignty of our publics and our 
obligations and duties around the world, in any position to 
bend to the will of the international community, as expressed 
through a mandate.
    On the other hand, there is no reason to be afraid of a 
mandate if, indeed, what that mandate does is codify into 
international practice and law the kinds of decent activity we 
believe ought to be conducted by sovereign States.
    So, again, there is a way that one has to weigh the purpose 
of a mandate when thinking about the subject.
    Although the concept, as I understand it, will not include 
a requirement for mandates, the issue of mandates will not, 
with that decision, be over. Even in Kosovo, it will not be 
over. We have two major issues before us. One is war 
termination and what our aims are going to be, what the terms 
of the peace are going to be. Then we have post-war stability 
in Europe and in the Balkans' region in particular.
    I am almost certain, as I am sitting here, that the issue 
of a mandate will arise once again and people will demand that 
a mandate be sought with respect to war aims and to the post-
war stability in the region.
    We are going to have to be quite clear, I think, here in 
the United States, about which approach we are going to take 
for those mandates.
    Let me touch on two other things. One is the defense 
capability's initiative, which was raised in our prior panel. I 
have again looked at some of the issues that are involved 
there. There is great promise that, indeed, our allies are 
going to do what we are asking them to do, and that is to 
improve their capability to conduct military operations.
    But the good news, Senator Biden, as you said earlier, is 
also the bad news because I believe the principle which has 
moved our European allies to agree to the kinds of improvements 
that we are seeking is that they have discovered that the 
military capability necessary to conduct peacekeeping 
operations is virtually identical to the type of military 
capability needed to conduct core missions within the alliance.
    So, even having succeeded on the issue of the capability's 
initiative, we will not have put to rest the question of what 
kind of missions the alliance will have as its priorities. 
Rather, instead we will assure we have an alliance that can 
conduct missions across the full spectrum of missions.
    Last, on the ESDI, ESDI is, I believe, a marvelous 
opportunity for the United States and it is a marvelous 
opportunity particularly in the context of Kosovo. This is 
because, as we move to war termination and post-war policy, I 
believe it is in the interest of the United States to assure 
that our allies take the lead in pacifying the region, in 
working to contain the rump of Serbia, and working on the post-
war stability in the region.
    Thank you.
    [The prepared statement of Dr. Cambone is in the appendix 
on page 45.]
    Senator Smith [presiding]. Thank you.
    Dr. Larrabee, I would point out that we have a vote coming 
up. How long is your prepared statement?
    Dr. Larrabee. It should take about 8 or 9 minutes, I think.
    Senator Smith. Does anyone on the panel have a time 
problem?
    Dr. Larrabee. I don't.
    Dr. Cambone. [Nods negatively]
    Mr. Hadley. [Nods negatively]
    Senator Smith. Then we will go to vote.
    Senator Biden. We only have about 7 minutes to vote. That 
is why we had better not start your statement now.
    Do you mind if we go to vote?
    Dr. Larrabee. OK. If you want to take a break, fine.
    Senator Smith. The committee will stand in recess.
    [Recess]
    Senator Smith. We will reconvene this committee hearing.
    Dr. Larrabee, we apologize to you and to all of our panel. 
We welcome your testimony.

  STATEMENT OF DR. F. STEPHEN LARRABEE, SENIOR ANALYST, RAND 
                  CORPORATION, WASHINGTON, DC

    Dr. Larrabee. Thank you very much, Mr. Chairman. I welcome 
the opportunity to share with you and your distinguished 
committee my views on the key challenges facing NATO at the 
Washington summit and beyond. I have submitted a complete 
version of my testimony for the record. However, in my remarks 
here I would like to concentrate on what I see as three main 
challenges facing NATO at the summit and beyond.
    First is to adopt a new Strategic Concept which will 
prepare NATO to meet the challenges it is likely to face in the 
21st century.
    Second is to manage the enlargement process in a manner 
that enhances European stability.
    Third is to achieve a satisfactory settlement of the Kosovo 
conflict that ensures the realization of NATO's principal 
objectives and preserves the cohesion of the alliance.
    Let me address each of these issues separately.
    First is the Strategic Concept. I believe the main focus at 
the Washington summit should be on deciding NATO's strategic 
purposes in the coming decades. The summit provides an 
opportunity to articulate a bold vision of NATO's purposes and 
to restructure its forces to meet the challenges it is likely 
to face in the coming decades.
    Many of these challenges are outside NATO's territory, 
either on Europe's periphery or even beyond Europe's borders. 
The alliance, therefore, needs to develop a broader definition 
of the threats to its interests and restructure its forces to 
adequately address these new threats and challenges.
    Some critics argue that NATO does not need to change, that 
it has worked well for 50 years and we should not tamper with 
it--in short, if it ain't broke, why fix it?
    But this view ignores the significant changes in the 
security environment that have taken place since 1989.
    I do not believe, Mr. Chairman, that it will be possible to 
sustain public support for NATO over the long run either here 
or in Europe if the alliance is primarily designed and 
configured to defend against a threat that has largely 
disappeared while, at the same time, ignoring the most pressing 
threats to allied security.
    At the same time the nature of the U.S. relationship with 
Europe needs to change. We need partners willing and capable of 
sharing the burdens of responsibility. Our European allies need 
to be able to share more of the responsibilities, including 
those in the military sphere, to deter threats to our common 
interests. As noted, many, if not most, of these threats are 
likely to be beyond NATO's borders.
    This is not a question of Europe needing more forces. 
Europe today has more than enough forces. The problem is that 
European forces are not structured to deal with the types of 
security threats that the alliance is likely to face in the 
future.
    Most European forces, Britain and France excepted to a 
large degree, are still configured to defend alliance borders 
which are no longer seriously threatened. These forces need to 
be reconfigured in order to be able to project and to sustain 
power beyond the alliance's borders. I think the Kosovo crisis 
only underscores this problem, with the United States providing 
80 percent of the usable power projection forces.
    The forces also need to be interoperable; that is, they 
need to be able to work together effectively as part of a 
coalition. Thus we need to insure that, as these forces 
modernize, they do so in ways that allow them to operate 
effectively together.
    Clearly, collective defense, Article V, should remain a 
core alliance mission. But in the future, most of the 
challenges that NATO faces will be non-Article V challenges and 
will not involve a direct threat to NATO territory. Thus the 
alliance will increasingly need the capability to deploy forces 
outside NATO territory.
    This will require forces that are more mobile, flexible, 
sustainable, survivable, and interoperable. The 
administration's defense capabilities initiative is designed to 
encourage improvements in precisely these areas.
    Finally, the alliance needs to preserve its freedom to act 
in a crisis. While it is preferable that NATO obtain a mandate 
from the U.N. for any non-Article V actions, there are some 
instances, such as Kosovo, where military action on NATO's part 
may be required even without a U.N. mandate. Such action should 
be the exception and not the rule. But it would be unwise to 
include language in the Strategic Concept that would prevent 
NATO from acting without a U.N. mandate.
    The second key challenge NATO faces is managing the process 
of enlargement in a way that enhances European stability. In 
structuring the next round of enlargement, NATO will have to 
balance five competing demands.
    First is the need to maintain NATO's cohesion and military 
effectiveness. As NATO enlarges, it must be able to maintain 
its core competencies and military effectiveness. New members 
need to be able to contribute not only to NATO's old missions 
but to the new missions as well.
    Second is the need to keep the open door credible. NATO 
will need to find ways to insure that the open door policy 
remains credible. I will come back to that. If NATO postpones a 
second round of enlargement too long, many prospective members 
may begin to lose hope of ever attaining membership. This could 
undercut the democratic forces and slow the momentum toward 
reform in these countries.
    Third is the need to digest the first round. The fate and 
timing of a second round will, to a large extent, depend on how 
well NATO succeeds in integrating the first three new members. 
If they perform poorly and do not live up to expectations, this 
could diminish the willingness of NATO members, particularly 
the U.S. public, to support a second round.
    Fourth is the need to maintain a viable partnership with 
Russia. As in the first round of enlargement, NATO will need to 
take into consideration the impact of enlargement on relations 
with Russia. Moscow will need time to adjust to the new 
strategic realities and NATO should be careful not to 
overburden the Russian political process.
    At the same time, NATO needs to maintain momentum in the 
enlargement process and insure the credibility of the open door 
policy.
    Fifth is the need to maintain internal consensus within 
NATO itself.
    Some members, such as France and Italy, have pressed for 
the inclusion of Slovenia and Romania in an early second round. 
Others, such as Denmark and Norway, favor including the Baltic 
States. NATO will have to balance these internal pressures to 
forge an alliance-wide consensus.
    These factors, in my view, argue for a deliberate, measured 
approach to further enlargement, one that gives NATO time to 
sort out its strategic priorities and digest the first round 
and also gives Russia time to adjust to the new strategic 
situation while making clear that NATO enlargement is a 
continuing process. At the same time, NATO needs to lay out a 
clearer roadmap at the Washington summit which identifies 
concrete steps that will be taken to insure that the door to 
NATO membership remains open.
    As part of this effort, NATO, in my view, should announce 
at the summit that it will review the performance of the 
aspirants at a special summit in the year 2001 with an eye to 
identifying specific candidates for a second round if their 
performance in the interval warrants it.
    Foreign and defense ministers should be tasked with 
preparing a progress report similar to the report on 
enlargement published by NATO in September, 1995, which could 
be presented at the ministerial meeting prior to the special 
summit. This report should assess the progress made by the 
aspirants and identify potential candidate members for a second 
round.
    Such a procedure would help enhance the credibility of the 
open door and give prospective candidate members an incentive 
to undertake the necessary reforms to improve their 
qualifications for membership. It would also buy time for NATO 
to digest the first round and give Russia time to gradually 
accustom itself to the fact that NATO enlargement is an ongoing 
process.
    The third and the most pressing challenge and most 
immediate challenge the alliance faces is successfully managing 
the conflict in Kosovo. Kosovo, in my view, is a defining issue 
for the alliance. How the conflict eventually is resolved will 
have a major impact on NATO's future, especially on NATO's 
ability to carry out its new missions. A failure to achieve 
NATO's objectives in Kosovo would undermine NATO's credibility 
and ability to act as an effective security manager in post-
cold war Europe.
    In my view, NATO was right in undertaking the current 
military action, and I agree very much with Senator Biden that 
if the United States and the allies had sat idly by and done 
nothing to stop Milosevic's campaign of ethnic cleansing, 
NATO's credibility and effectiveness would seriously have been 
undermined.
    Many Europeans and Americans would have asked what good is 
NATO if it cannot deal with the most pressing security problems 
in Europe.
    At the same time, as Secretary Grossman noted, the United 
States and its European allies need to look beyond the current 
conflict in Kosovo and develop a comprehensive, long-term 
stabilization strategy for Southeastern Europe. This strategy 
should have a political, economic, and security component and 
should be designed to integrate Southeastern Europe into a 
broad Euro-Atlantic framework.
    The European Union should take the lead in promoting the 
economic component. This should include a broad plan for the 
economic reconstruction not just of Kosovo but of the entire 
region. The end goals should be a closer association and 
eventual economic integration of the region into the European 
Union.
    This stabilization strategy, however, should also contain 
an important security component. Once the Kosovo conflict is 
over, the United States and its allies should consider 
stationing a stabilization force not only in Kosovo but also in 
other countries on the periphery, especially Macedonia and 
Albania, provided, of course, those countries wish such a 
force.
    This stabilization force, which could be NATO led, would be 
designed to provide reassurance and establish a security 
umbrella under which these countries could carry out a program 
of comprehensive economic and political reform.
    As in Bosnia, the majority of the stabilization forces 
could and should be provided by our European allies. They have 
the greatest stake in security in the region. Moreover, they 
have been clamoring to assume more responsibility for alliance 
security.
    This would provide an opportunity for them to give 
substance to their ambitions.
    The U.S., however, should also contribute to the 
stabilization force. We cannot expect to claim leadership in 
the alliance unless we are willing to share the risks with our 
European allies.
    Some U.S. forces could be redeployed from Germany to 
participate in these stabilization missions in Southeastern 
Europe. With the end of the cold war and the entry of Hungary, 
Poland, and the Czech Republic into NATO, the United States no 
longer needs some 60,000 troops stationed on the central front 
to defend borders that are largely no longer threatened.
    Indeed, it may be time for the United States to consider a 
general redeployment of some of these troops to Southeastern 
Europe. After all, it is this region, not the central front, 
where the most serious security problems in Europe are likely 
to be in the future.
    Such a comprehensive stabilization strategy obviously 
cannot be carried out overnight. It will take time and a 
significant commitment of resources, both on the part of the 
United States and its European allies. But the price tag of 
lives and treasure is likely to be significantly higher if such 
a comprehensive effort is not undertaken and the problems of 
Southeastern Europe are allowed to fester or continue to be 
addressed only in piecemeal fashion.
    Thank you very much, Mr. Chairman. I welcome the 
opportunity to answer any questions related to my testimony.
    [The prepared statement of Dr. Larrabee is in the appendix 
on page 59.]
    Senate Smith. Thank you, Dr. Larrabee, and thanks to all of 
you. If you have some time--I have another 15 minutes--I would 
love to pick your brains as I see some of the best brains on 
NATO in the country right here at this dias.
    I think every witness today has said in one way or the 
other that we have to win in Kosovo; for NATO's future we have 
to win now that we have undertaken this.
    As I understand the objectives that NATO has laid out, they 
are the withdrawal of the Serbs from Kosovo, at least the 
security forces of the Serbians; the return of the Kosovar 
Albanians to Kosovo; allowing them an autonomous--not an 
independent, but an autonomous--future; and an international 
peacekeeping force to provide security.
    Now those are our goals that, as I understand it, 
constitute victory.
    Conversely, if I were Mr. Milosevic, I would be saying that 
what I want out of this is to stay in power, stay alive, 
increase my power if I can, and to get Kosovo ethnically 
cleansed.
    If that is victory to him and the other is victory to us, 
we are losing. We are losing.
    It seems to me that we are not employing the means to 
achieve this political end, parts of which I don't even think 
are realistic. I mean, autonomy? Who wants autonomy? The 
Albanians do not. The Serbs won't give it. So we are going to 
impose it through airplanes?
    I don't know where in military history armies surrender to 
airplanes. Moreover, I don't know where in history you can 
retake territory unless you are prepared to stand on it.
    This leads me back to some of my opening comments. Have we 
created in NATO an operational dinosaur? This is an open 
question. I don't have the answer and I would love for you all 
to comment on that. Are we winning, are we losing, and what 
have we created here?
    Dr. Larrabee. Mr. Chairman, if I could address that 
question, I think you have to distinguish here between goals 
and strategy. I think the goals are right. I think NATO has the 
means. The question is whether it is employing the right 
strategy.
    Your remarks suggest that you do not think so. My testimony 
in full also suggests that I do not think so and that I agree 
with you that air power alone is unlikely to achieve the 
objectives that NATO has set out. But it is not that we do not 
have the means or the capability. It is a question of whether 
we are employing them correctly or not.
    Senator Smith. And do we have the will for it? I mean, I 
don't have the answer to that. One of the points of these kinds 
of hearings is for the congressional branch to nudge the 
executive branch and we are trying to nudge them pretty hard 
right now because, frankly, I see us losing the war.
    Mr. Hadley. I would just add a political point. I agree 
with your analysis that we have a mismatch between declared 
objectives and the means to achieve them. But to conclude that 
NATO is a dinosaur and is at fault, I think that I would 
disagree with. NATO is an instrument. It is an instrument that 
reflects and does the will of its members largely under U.S. 
leadership. I think the responsibility for the mismatch between 
objectives and means really starts with our own policy.
    So I think we have to look really here at home to see if 
the President can put together a consensus to bridge the gap. 
But I think that is where the problem starts, with the policies 
pursued by the members of NATO. NATO is not an independent 
actor here. It is really an instrument of these countries.
    That would be my comment.
    Dr. Cambone. This goes, Senator, to the point about the war 
aims. The set of war aims that NATO has put together that we 
here in the United States have adopted as our own do not, as 
you point out, match with the war aims of Serbia. Therefore, 
seeing your way through to how you come to a successful 
conclusion to the war, that is, how do you, in fact, muster 
NATO's capabilities and how do you apply them appropriately 
becomes the muddle that we are in now.
    We are operating against one set of objectives and he 
against a different set. We have chosen to do it by different 
means. The means we have chosen we thought to be consistent 
with the aims we had.
    Senator Smith. Can we reverse field and change those?
    Dr. Cambone. Therein lies the rub. Yes, you can reverse 
field.
    Senator Smith. It seems to me the means we have chosen have 
said to Milosevic in very clear terms how he can win, which is 
we have telegraphed our pain threshold, that we cannot take 
casualties. Therefore, all you have to do is carry on your 
ethnic cleansing as quickly as you can and hunker down in your 
bunkers at night and, guess what, when the bombs stop falling, 
you are the last man standing and you win.
    Dr. Cambone. I appreciate that. Changing field, though, 
requires changing aims because, unless you change the aims, you 
cannot muster the proper strategy. I think, consistent with 
your view of Milosevic, which I think is shared by many, there 
would have to be two, it seems to me. One is the defeat of his 
military forces, and his security forces and, oh, by the way, 
the police forces that are in Kosovo. Second, NATO would have 
to organize its strategy in war in such a way that in the end 
it is capable of imposing a peace. That's hard.
    Senator Smith. Are the American people and the people of 
Europe's member countries likely to support the evolution of 
our means to achieve our goals?
    Dr. Cambone. The means, yes. I believe that's so. It is the 
question of whether they are prepared to support a change in 
aims that is at the heart of this crisis, I think.
    Dr. Larrabee. May I just add a point and slightly disagree?
    I think the aims, as stated by NATO, are the correct aims. 
I am just looking at what Solana has said: verifiable stop to 
all military action and immediate ending of the violence and 
repression; second, withdrawal of the Yugoslav Army, police, 
and paramilitary forces; stationing in Kosovo of an 
international military presence; and the unconditional safe 
return of the refugees.
    The question is whether the means that we are employing, as 
you suggested, will achieve those aims. I would not personally 
change those aims. I would change the means because I do not 
believe the means that we are using--air power alone--will be 
able to achieve those aims.
    Mr. Hadley. Senator?
    Senator Smith. Yes, go ahead.
    Mr. Hadley. I think one of the things that Senators can do 
to help in this debate is this. I think the aims for the moment 
are fixed. There is a discussion in the United States about 
means and people are going quickly to the notion of whether we 
should put in ground forces.
    But putting in ground forces is not a silver bullet. You 
can put in ground forces and, if you do it in the wrong way, in 
a way that does not achieve our objectives, you can make the 
situation worse rather than better. One of the things you can 
say to this administration is, OK, let's talk about ground 
forces. What are the objectives for those ground forces? What 
are the requirements to achieve them? And are you willing to 
get out of the way--your point about the instrument--and let 
the military do what it needs to do to achieve those 
objectives?
    I think the debate about ground forces misses the point. 
The question is whether ground forces will be a way of 
correcting the mismatch between objectives and means. If so, 
how do you do it, what is the strategy?
    I think pushing the administration on that point is 
something that needs to be done. I do not hear it in the public 
debate yet.
    Senator Smith. Well, we are pushing them. That is one of 
the points of this meeting.
    Steve Hadley, I wonder if you can tell me this. You spoke 
earlier about nuclear policy in NATO. I wonder if you can tell 
me what the disadvantages are of a no first use policy. I have 
my own views on that. I wonder what yours are.
    Mr. Hadley. The problem of no first use I think really 
comes in two forms. One is without having a chemical weapon 
capability ourselves, being in the process of destroying our 
chemical weapons, and without having any biological weapon 
capability, there is the concern about deterring the use of 
those kinds of capabilities against our forces.
    I think one of the things we learned in the Gulf War is 
that the possibility of a nuclear response was something that 
Saddam Hussein had in mind and it influenced his decision about 
whether to get ready to use chemical or biological weapons.
    One of the problems of no first use is it does not deal 
with the full range of weapons of mass destruction, which is 
biological and chemical. And we have used our nuclear weapons 
in some sense to deter the use of those.
    Then the other problem, of course, is a State like North 
Korea and the conventional military capability it has within a 
very short distance of Seoul, South Korea, and the need to 
deter that capability.
    I think one of the things the administration has struggled 
with is what would have been the effect of a no first use 
declaration on the North Koreans.
    So there are very practical issues that I think make it 
very difficult for us to consider adopting the no first use 
formula.
    Senator Smith. So as you understand the nuclear doctrine 
being advanced and the new strategic concept in NATO, is it 
adequate?
    Mr. Hadley. From what I can determine--and nuclear issues, 
as you know, are very neuralgic in the alliance and there may 
be some last minute change--but from what I can determine, the 
Strategic Concept on which they are working involves no 
significant change in the statements with respect to nuclear 
weapons.
    Maybe the others have other insights.
    Dr. Larrabee. I have not seen the statement itself, but I 
think it is fair to say that, with the exception of Canada and, 
initially, Germany, none of the other members of the alliance 
is in favor of changing the nuclear strategy at this time. 
Indeed, I would point out that, when the German foreign 
minister made his statements about the desirability for 
changing this, one of the first countries to oppose that was 
Poland.
    Senator Smith. Good. Do you think the administration 
performed well in preparing for and negotiating this new 
Strategic Concept? Did we need a new Strategic Concept?
    Dr. Larrabee. In my remarks, I tried to suggest very 
strongly that I think we do, although I do agree with Steve 
Hadley that if one reads very carefully the original Strategic 
Concept, there is a lot in the original one looking forward to 
some of the changes in the security environment. But, on the 
other hand, one has to accept that that old Strategic Concept, 
which was adopted in November, 1991, occurred before the 
collapse of the Soviet Union, before the real onset of the war 
in Bosnia, before enlargement, before partnerships with Ukraine 
and Russia and before PfP. So there are a lot of things that 
have happened in the meantime that require adjustments, not a 
whole-scale throwing out.
    I think, from what I have seen in the administration I 
think it has. I think Secretary Grossman gave a fair rendition 
that they took very seriously Senator Kyl's and the Senate's 
admonitions and have tried to stay within that framework.
    Senator Smith. Maybe each of you would like to take a crack 
at that question, the need for a Strategic Concept and the 
preparation for it.
    Dr. Cambone. It is an idea in the proposing that always 
looks better than in the doing. For the reasons that Steve 
Larrabee has pointed out, there was reason to want to go back 
and look again at the Concept.
    I don't know, again, having compared the two documents, one 
in draft and the other, many of the paragraphs fall in the same 
place. They are numbered in the same way. They say much the 
same thing.
    There are two differences of note. One is on, in fact, 
Russia. It disappears as the problem that was painted in the 
1991 Concept. The second is, significantly, the increased role 
that is promised for the alliance in the soft security aspect 
of affairs in Europe. This is inescapable.
    It is there and I suspect it is going to go forward. I 
think it has support here and in Europe. It is something we are 
going to have to wrestle with.
    Did we have to do this? I don't think so. But, having done 
it, we are now going to have to wrestle with it.
    Senator Smith. Does ESDI worry you? Do you think that is a 
good thing?
    Dr. Cambone. It can be worrisome, again for the reasons 
that have been pointed out. If it causes a split in view, then 
it will be worrisome and troublesome.
    But I think, for now, the Europeans understand that they 
are not politically nor militarily capable of being independent 
of the transatlantic security arrangement, and we should use 
that recognition as an opportunity to forge a closer tie. I 
think that, in turn, is going to rest on some things done here 
in the Congress, particularly on matters having to do, for 
example, with infrastructure funding.
    If the United States is prepared to continue to support 
infrastructure at NATO that will support force projection 
missions, that will help. If the United States is prepared to 
encourage buying European and mergers between U.S. and European 
firms, that will help.
    But we here need to take some measures as well to hold them 
close and not cause them to try to look for ways to drive 
wedges into that relationship.
    Mr. Hadley. I think, Senator, that Frank Kramer had a good 
point. The Europeans should do more. We should urge them to do 
more on burdensharing grounds. But the consequences of that are 
that if they actually do do more, they will, like anybody else, 
want more of a say. So the alliance management problems that 
you all talked about earlier in the hearing are going to get 
worse rather than better. But this is the price, I think, of 
the Europeans really growing up and taking more responsibility.
    Senator Smith. It is a price worth our paying?
    Mr. Hadley. On balance, it is a price worth our paying.
    Senator Smith. That is my own judgment, too. But I have to 
express, as I began this hearing, my fear about NATO's future 
because I think the American people will wake up to what NATO 
means both grateful for what it has done--winning the cold war 
without firing a shot--but also wanting nothing to do with what 
they see it being in the future, which is a European police 
force for these regional kinds of problems presented by the 
Balkans.
    It is very likely what could be the reaction. And there is 
in both political parties strong and growing isolationist 
feelings. Kosovo is either going to magnify those or diminish 
those, depending on the outcome.
    Dr. Larrabee. But, Senator, if I could add, one of the 
things the administration has tried to do is to focus on 
conflicts beyond NATO's borders not only in Europe but looking 
further afield. In part, I think what is behind this--and I 
think it was mentioned here by some--is a sense that we want 
partners to be able to help us be able to deal with these 
conflicts, not only in Kosovo and not simply peacekeeping 
forces, but to able to deal with high intensity conflicts, and 
that we should try to strike a new strategic bargain with the 
allies so that, as we participate in missions, such as Kosovo, 
they also take on more responsibilities outside of Europe and 
outside the NATO area.
    But to do that, you have to have some of the types of 
initiatives I think the administration is promoting, 
particularly the WMD initiative, the DCI, the defense 
capabilities initiative, and the common operational vision.
    All of these are designed to get improvements in allied 
forces and particularly European forces to be able to have the 
type of capabilities that would deal with these types of 
challenges.
    Senator Smith. Are there any concluding comments?
    Dr. Cambone. I share your concern about public opinion. It 
brings me back to the issue of war aims.
    My fear is that we will keep the war aims the same, we will 
commit American ground forces to them, and we are going to find 
a satisfactory achievement of those aims extraordinarily 
elusive. It is going to be very hard to do in time. I mean, it 
is going to require a long-term, large-scale investment, I 
believe, in the region as a consequence of what we committed 
ourselves to do.
    So if we are going to commit the ground forces and win the 
war, we have to step back and ask do we have the aims that will 
allow us both to win the war and have an outcome over time in 
which we have a pacification in Kosovo, a containment of 
Serbia, and regional stability in a way that minimizes the 
long-term commitment of American military forces in the region.
    The aims of the war are intimately associated with that 
longer-term consequence. I think we have to think very 
carefully about those aims before the troops go in.
    Senator Smith. You have the final word.
    Mr. Hadley. I think you are right to be worried. If you 
read this 1991 document, it is all about defense and defense in 
the event of attack. While it mentions interests, it is heavily 
territorial. That, I think, is what the Americans understand 
about NATO.
    I think they also understand the importance of the Gulf. I 
am not sure they understand Kosovo. I, with you, am concerned 
that Kosovo will fall between two stools. That is why the 
public debate and the public education, getting the aims and 
the means right, is critical. This is because I think Kosovo is 
a stretch for where the American people are right now.
    I think you are right to be worried.
    Senator Smith. Well, I hope I am wrong, but only time will 
tell.
    We thank you all. This has been a very productive hearing.
    With that, this hearing is adjourned.
    [Whereupon, at 4:35 p.m., the committee adjourned.]
                            A P P E N D I X

                              ----------                              


            Prepared Statement of Dr. Stephen A. Cambone \1\
---------------------------------------------------------------------------

    \1\ Dr. Cambone is the Director of Research, Institute for National 
Strategic Studies, National Defense University, Washington, DC. The 
views expressed in this statement and in his oral presentation are his 
personal views and do not represent those of the National Defense 
University or the Department of Defense.
---------------------------------------------------------------------------
         issues surrounding the 50th anniversary summit of nato
I. Introduction
    Mr. Chairman, it is an honor to appear before you and other Members 
of the subcommittee to discuss issues surrounding the 50th anniversary 
of the Washington Treaty.
    I will address three issues that are before the Alliance:
          (1) whether the Alliance requires a mandate from the United 
        Nations (UN) or the Organization for Security and Cooperation 
        in Europe (OSCE) to undertake military operations except when 
        the territory of a member state is attacked;
          (2) the need to modernize allied military capabilities; and
          (3) the relationship of the European Security and Defense 
        Identity (ESDI) to NATO and to the long-term security interests 
        of the U.S. in Europe.
    How these issues are treated will define the purposes of the 
Alliance over time, its capability to perform its assigned missions and 
the willingness of the American public and Congress to support NATO as 
the center point of security in Europe.
    Before turning to these issues it is important to note that the new 
Strategic Concept will preserve the basic tenets of the one it is to 
replace. This includes the continued emphasis on the central role of 
the Alliance as a collective defense organization whose primary purpose 
is to defend its member states against aggression. It makes no change 
to Alliance nuclear doctrine.
    At the same time, there are changes of note. The new Strategic 
Concept gives increased emphasis to the political role of the Alliance 
in promoting peace and stability in Europe. This brings with it the 
increased probability that NATO will find itself drawn into what some 
call soft security problems--illegal immigration and counter drug 
operations, for example. In this way the Concept increases the scope of 
NATO's security concerns. But it also creates the mechanism by which 
the U.S., and other allies, can block direct NATO involvement in soft 
security operations while enabling coalitions of the willing among the 
allies to take on the mission.
    Among other notable changes, the Strategic Concept elevates concern 
within the Alliance for the dangers posed by terrorism and the 
potential of hostile state and non-state actors to employ weapons of 
mass destruction against NATO members. It takes welcome steps toward 
encouraging defensive measures against ballistic missile and 
information warfare threats.
II. The Question of Mandates
    A prominent feature of the discussion over the new Strategic 
Concept is whether the Alliance requires a mandate from the UN or the 
OSCE in order to undertake so-called ``non-Article V'' missions.
    The Strategic Concept will not contain a binding requirement for 
such a mandate. This decision is welcome. However, it does not lay the 
issue to rest.
    Behind the debate over the mandates is a more fundamental one about 
the basis for security, the principles upon which the U.S., its allies 
and NATO will commit to the use of force and the obligations that can 
be imposed on us by the international community to use that force. We 
stand at a crossroads in that debate. Since the end of World War II, 
the U.S. has taken the perspective known as collective defense. Since 
the end of the Cold War another approach has taken shape, known as 
collective or cooperative security. Many, both in Europe and in the 
U.S., who support the requirement for a mandate favor a change from 
collective defense to collective security. The U.S. Government has 
resisted this change. The pressure for change will not abate.
    As the leader of the Alliance, the position taken by the U.S. on 
these more fundamental issues is of critical importance. The United 
States Government and the Congress need to clarify and express their 
views on the issue. Those with long experience with NATO might object 
to this advice. They might argue that the best approach is to allow the 
issues surrounding mandates to be worked out in the way that NATO 
operates best, on a ``case by case basis.'' There is wisdom in this 
argument. But ``case by case'' should not imply ad hoc.
    In my view we should resist efforts to infuse policy related to 
NATO, including the aftermath of the war in Kosovo, with tenets drawn 
from the collective security perspective. Adopting this perspective 
risks subordinating U.S. interests to the will of the international 
community. That community, and the actions it calls for in its 
mandates, is not directly accountable to the American citizens. A 
collective defense perspective, by contrast, draws its strength from 
the fact that its authority to act is derived from consent of its 
constituent member states, all of which in the case of NATO draw their 
authority from their citizens. This approach does not militate against 
mandates, as President Bush demonstrated in the case of Iraq. It does 
insist, however, that a mandate preserve the authority and obligation 
of American citizens over matters of war and peace. This is essential 
to the continued support of the American people, the Congress and U.S. 
Government to active participation of the U.S. in international 
affairs.
    The need for clarity on this issue is pressing. The war against the 
FRY began without a mandate; it is quite possible that its end and 
aftermath will raise the issue anew. It is possible that the issue of 
mandates, and the issues related to it, will arise in the weeks and 
months ahead as we work with the international community to terminate 
the war against the Former Yugoslavia and provide for post-war 
containment, pacification, and regional stability. How the issue is 
handled requires careful reflection, and choice, on the mandate issue 
and the underlying issues related to collective security and collective 
defense.
    I would offer two points of departure for guiding reflection the 
mandate issue. They are not exclusive of each other. However, they do 
lead to different policy conclusions.
    The first point of departure is to consider the issue of mandates 
from the perspective of collective security. This perspective, at the 
limit, takes the position that except for direct self-defense, no state 
has an inherent right to use force against another state. Nevertheless, 
there clearly are occasions when force is a legitimate instrument of 
policy, as in the case of protecting humanitarian relief operations or 
defending populations of sovereign states when their human rights are 
being abused. In the latter case it might be argued, for example, that 
by making war on its own people, a state forfeits its sovereignty over 
those people. Under such conditions the international community has an 
obligation to protect those people until a new government is created 
for or by them.
    From the perspective of collective security, mandates are 
necessary. The international community, most likely through the UN, 
however, must authorize the use of force. That authorization is needed 
both to limit the use of force to specific tasks and as a deterrent to 
others who would violate the security of the international community. 
Many who take this view see a mandate as essential for political and 
legal reasons if NATO is to take any action other than those related 
directly to self-defense. For some a mandate can create a new form of 
legitimacy. That is, a UN mandate can permit the international 
community to do legitimately what a sovereign state, taking the counsel 
of its moral sentiments and national interests, might otherwise 
consider an illegitimate use of force.
    The second point of departure is to consider the issue of mandates 
from the perspective of collective defense. This perspective sees the 
decision to use force as one reserved to a sovereign state in pursuit 
of its legitimate interests. The greater the control of a sovereign 
citizenry over their government the less likely that force will be used 
for base or evil purposes. In an effort to discipline the international 
system, like-minded states have established norms of intemational 
behavior and agreed to assist each other in defense of those norms. 
They include respect for the territorial integrity and political 
independence of states and opposition to the use of force to change 
state boundaries.
    This is the perspective that lay at the heart of NATO's formation 
and of its ethos. The members of the alliance have a strong attachment 
to their sovereignty, an attachment reaffirmed in the new Strategic 
Concept. As a result, Article V of the Washington Treaty does not 
oblige the members to do anything specific in case an ally is attacked. 
The Treaty only obliges each ally to ``take such actions as it deems 
necessary, including the use of armed force, to restore and maintain 
the security of the North Atlantic area.'' The circumstances of the 
Cold War left few in doubt that an attack on one would constitute and 
attack on all, bringing the member states of the Alliance to the 
defense of the ally under attack.
    The collective defense ethos of NATO is compatible with that of the 
UN Charter. In fact, Article V requires NATO to report the actions it 
has taken to defend its member states to the Security Council. It also 
requires that NATO cease operations when the Security Council has 
``taken the measures necessary to restore and maintain international 
peace and security.'' Article V implicitly leaves the judgment whether 
those measures are acceptable to the allies.
    From this perspective the UN is seen as an organization with 
specific responsibilities assigned by treaty and not as one 
representative of, or empowered to act independently on behalf of, the 
international community. This perspective does not relieve NATO member 
states of the obligations they have assumed under the UN Charter. At 
the same time, this perspective does not see those obligations taking 
precedence over the sovereign obligations of the individual states or 
of those states to each other under a collective defense agreement.
    From the perspective of collective defense, mandates are not 
required to enable inherently legitimate action by a sovereign state 
and cannot create rights for the international community that supersede 
those of individual states. Hence a mandate for action is not needed by 
NATO, which operates only at the direction of its sovereign member 
states, themselves subject to the authority of their citizens. Nor can 
a mandate compel action by NATO. If one is sought, a mandate can serve 
one or more purposes. Most importantly, it can serve as a method of 
codifying in international law the norms of behavior advocated and 
practiced by sovereign states governed by a democratic citizenry. A 
mandate can also serve as a vehicle by which states not immediately 
affected by a NATO action can express their agreement with that action. 
It can serve as well as a mechanism to enlist the aid of those states 
in restoring and enhancing international peace and security.
    At bottom the question of mandates is about the basis for the 
legitimate use of force. The collective security approach tends to the 
view that the international community should confer legitimacy on any 
use of force other than for self-defense. There are those who would 
argue that a mandate can legitimize and authorize the use of force by 
the international community--for example, intervention into the 
internal affairs of a sovereign state to defend human rights--in ways 
that heretofore the same international community would have been seen 
as illegitimate.
    A collective defense approach tends to view the use of force for 
other than self-defense as discretionary, drawing its ultimate 
legitimacy from the source of all authority, the consent of the 
governed within the state. There are those who would argue that 
discretionary force should aim to reinforce the principles of modern, 
liberal government--for example, that governments are held to account 
for their practices if they affect the sovereign rights of other 
states.
    As a practical matter, and as noted earlier, the two perspectives 
outlined here are not exclusive of each other. The war against the FRY 
underscores the point.
    The decision by NATO to take action against the FRY has all the 
hallmarks of discretionary use of force by democratic states. The 
allies understood that FRY attitudes toward and operations in Kosovo, 
which had engendered armed opposition by ethnic Albanians living in 
Kosovo, had set the stage for wider instability in the Balkans and the 
possibility that war could ensue within and among the states of the 
region. This in turn could pose a wider threat to NATO allies and 
European stability. From the perspective of the moral sentiments and 
national interests of the allies, this is a legitimate basis on which 
to wage war through NATO against the FRY.
    At the same time, the rhetoric surrounding the confrontation 
between NATO and the FRY is more in keeping with the collective 
security perspective. This rhetoric defines the purpose of the war as 
the defending the rights of the people of Kosovo against their own 
government.
    Which perspective (or the relative proportion of the two) will 
guide NATO's war aims, war termination demands and post-war policies is 
still in the balance. The choice could set a long term precedent.
    From a collective security perspective, a right to intervene in the 
domestic affairs of a state implies an obligation to rebuild the 
political basis for peace and stability in the region by resolving the 
problems that led to conflict. Ironically, while this obligation might 
extend to a regime change in Belgrade, it does not require one. A 
negotiated outcome could be acceptable if arrangements can be found to 
protect the Kosovars in Kosovo and provide them with some form of 
autonomy guaranteed by international forces. That outcome might include 
partition or the creation within Kosovo of autonomous, loosely 
confederated, ethnically based enclaves. While the terms of a 
negotiated settlement are uncertain, it is certain that it would 
require a very long-term political, economic and military commitment to 
Kosovo, the FRY and the region by the international community, and 
particularly the United States.
    From a collective defense perspective the obligations of the allies 
to the Kosovars are more limited in their extent. Resolving the war 
depends less on taking up the cause of the Kosovars than in assuring 
that the government in Belgrade is held to account for destabilizing 
the region and threatening a wider war. This view elevates war aims 
from and end to the fighting, a return of refugees and creation of an 
autonomous Kosovo to a defeat of Serbia's military forces and peace 
terms dictated by NATO to include possibly, a change of government in 
Belgrade. It is a perspective that requires a higher level of political 
and military commitment in the near-term, but is likely to result in a 
reduced burden over the longer term.
    ``Getting it right,'' will go a long way to determining whether 
NATO will continue to serve as the center point of security in Europe. 
The Congress has an interest in how we state our war aims and post-war 
objectives. If without conscious choice we adopt approaches more akin 
to collective security than collective defense, we may find that we 
have confused allies, potential adversaries or ourselves about our real 
interests. That would place the Alliance and the security of Europe at 
risk.
III. Core Capabilities
    The concern over mandates and the underlying question of the 
legitimate use of force is important. It is of far less consequence if 
the Alliance does not develop and maintain the capacity to conduct 
effective military operations across the full spectrum of conflict. The 
Alliance as a whole does not possess that capacity today. The allies 
have recognized this fact. As a result they have agreed to a new, 
common operational vision and to launch a Defense Capabilities 
Initiative (DCI) at the Summit.
    The aim of the initiative is to close the apparent gap between the 
technical capabilities of U.S. forces and those of our allies. Key to 
the DCI is an agreement among the allies to the creation of a common 
operational vision for the employment, and hence the development and 
fielding, of allied forces.
    This is a highly technical initiative. It has a straightforward 
objective. Allied forces were designed and equipped to meet a Warsaw 
Pact invasion. The forces were designed to fight from relatively fixed 
positions, close to their home bases and with the use of supporting 
civilian infrastructure, for a short period of time. And, given the 
expectation of the scale of nuclear escalation, those forces were not 
expected to be highly survivable against ballistic or cruise missiles 
armed with nuclear, biological or chemical warheads. This was 
consistent with NATO Cold War doctrine.
    The allies have agreed in the Strategic Concept to adopt a new 
common operational vision or doctrine that reflects new threat 
realities. It will guide the transformation of allied forces to meet 
modern requirements. It stresses mobility, sustainability and 
survivability for forces operating at long distances from their home 
bases. The common operational vision that is to guide NATO 
modernization is based on the same tenets as Joint Vision 2010, the 
doctrine guiding the modernization of U.S. military forces.
    In earlier times the DCI might have been dismissed as so much 
window-dressing. The number of NATO modernization efforts that have 
come and gone without having materially improved NATO's capability is 
too painful to recall in detail. But what is different today is that 
the capabilities identified in the DCI are essential to the successful 
performance of any military mission. That is, whether performing a core 
mission or a new mission, the allies know they need forces that can 
move quickly and efficiently, communicate clearly and securely, protect 
themselves from attack and deliver firepower with decisive effect and a 
minimum of unintended consequences. The Strategic Concept explicitly 
recognizes that the force capabilities needed for success in Bosnia and 
in Kosovo are not significantly different from those needed to perform 
the core Article V mission.
    In support of the operational vision, the Defense Capabilities 
Initiative (DCI) calls for:

  <bullet> substantial allied investment in command, control and 
        communications (C3),
  <bullet> improvements to air, road, rail and sea transport,
  <bullet> multinational logistics,
  <bullet> increased security against information warfare and NBC 
        attack, and
  <bullet> procurement of weapons systems--both lethal and non-lethal--
        able to operate effectively under all conditions.

    The administration deserves congratulations for promoting the DCI. 
It focuses on capabilities that are beneficial to the allies both from 
a national perspective and allied perspective. It comes at a time when 
the allies are modernizing their militaries. As a result, the DCI has a 
higher probability of success than history might lead us to suppose. 
That said, the challenge is to manage it to a successful conclusion.
    There are a variety of pressures on the allies that will make it 
difficult for them to achieve the objectives of the DCI. Sluggish 
economies, high unemployment, costs associated with the management and 
enlargement of the European Union and the inefficiencies imposed by the 
still consolidating defense industry in Europe are among the most 
prominent impediments. The Congress will need to urge both the 
administration and the allies to overcome these impediments. The 
Congress can measure and encourage progress by:

  <bullet> monitoring the rate at which allied units are transformed 
        from territorial defense roles to force projection roles and 
        insisting that a greater fraction of NATO infrastructure 
        funding be devoted to the force projection role;
  <bullet> encouraging a higher level of allied investment in research 
        and development;
  <bullet> increasing the ease with which the U.S. can ``buy European'' 
        and U.S. industry can merge with European firms when such 
        transactions improve our security and make economic sense.

    Finally, the committee structure of the Alliance that is charged 
with managing the DCI is hopelessly complicated and a dinosaur of the 
industrial age. The allies have agreed to a special high level group to 
oversee this structure. That is not enough. Congress must encourage 
NATO to update and adapt that structure to increase the likelihood that 
the DCI will succeed.
IV. The European Security and Defense Identity
    The agreement by the members of the European Union (EU) to a common 
currency, the Euro, will have a profound effect on politics in Europe, 
to include the politics of security. A common currency will drive the 
member states of the EU to conform their fiscal and budgetary policies. 
This, in turn, will require that they conform their social and security 
policies.
    In the area of security policy, the EU has long worked toward the 
development of a European Security and Defense Identity (ESDI). The 
U.S. overcame its skepticism of an ESDI late in the Bush 
Administration. The first Clinton Administration gave its endorsement 
to the idea at the Brussels Summit in 1994 and set out to develop a way 
for NATO to both encourage and support an ESDI. By 1996 the outlines of 
a plan were in place. The heart of the American interest in ESDI is 
uncomplicated. The U.S. would prefer that our European allies take on a 
greater proportion of the security tasks and defense responsibilities 
for Europe. This would free U.S. forces for operations elsewhere while 
at the same time generate allied forces that might, on a case by case 
basis, join the U.S. in operations outside of Europe.
    The Europeans, too, want greater autonomy in security and defense 
matters. But outside NATO, they have little in the way of competent 
structures to manage European security and defense affairs. Allies, 
operating in and through the EU and the Western European Union (WEU), 
have begun to fix this deficiency. Recent steps taken in this direction 
include the St. Malo agreement on defense cooperation between Britain 
and France and the discussions surrounding the absorption of the WEU 
into the EU. Other, less obvious steps are to be found in the decisions 
surrounding the privatization of defense industries in France, defense 
industry consolidation in Europe and the sponsorship of the Rambouillet 
talks by the UK and France.
    Whereas the DCI is a highly technical initiative, the ESDI is 
fraught with political complications. In its simplest formulation it 
commits NATO to provide to the allies operating under an EU/WEU 
umbrella assets they would need to perform military missions that NATO 
has refused to take on. These missions are likely to be limited 
primarily to soft security operations-humanitarian relief, search and 
rescue and peace operations. The extraction force deployed by the UK 
and France to provide protection to the monitors of the ill-fated 
Rambouillet accords--mobile but lightly armed with the implicit support 
of NATO--is an example of the kind of missions the ESDI envisions 
Europeans taking on in the near- to mid-term.
    The assets are primarily those that are part of NATO's 
infrastructure and to which the allies have contributed, in the 
aggregate, some 75% of the cost. In addition to those assets that a 
``coalition of the willing'' of NATO members might call on NATO to 
provide, the Strategic Concept envisions releasing allied forces 
assigned to NATO for employment by the Europeans. The release of those 
forces is contingent on NATO's certification they are not needed to 
perform NATO missions. Moreover, the Concept recognizes the right of 
NATO to recall those forces should they subsequently be required.
    It is likely that NATO personnel will assist in drafting the plans 
for any operation conducted by the Europeans. The WEU will serve as 
NATO's planning partner and it is through the WEU that the Europeans 
would conduct an operation. NATO's insight into and influence over the 
operation would continue via the Deputy SACEUR, who would have command 
of the operation on behalf of the Europeans. The Europeans are still 
working out among themselves whether the WEU will be subordinate to or 
operate in cooperation with the EU.
    A number of issues are still in need of resolution. The one of 
particular interest to the Congress what is called NATO's ``right of 
first refusal'' and whether, having refused to take on a mission, it is 
automatically required to release assets to a European coalition of the 
willing. There are those in Europe who would argue that the EU/WEU 
should have an independent claim on NATO resources and national forces 
assigned to NATO, one that would take precedence over a NATO decision 
to take on a mission. This view is driven by the notion the EDSI must 
not be subordinate to NATO if it is to reflect European as opposed to 
transatlantic values and objectives. At present, this argument appears 
to be more a form of political posturing for European audiences than a 
serious proposal. The EU/WEU is not yet ready to act, either 
politically or militarily, independently of the transatlantic security 
community.
    Over time, however, the EU/WEU will grow in confidence and stature. 
As it does, it is important that the U.S. and its EU-member allies 
develop compatible views on how security in Europe is best sustained 
and the role of force in sustaining European security. The closer those 
views are the less controversy is likely to plague ESDI and NATO's 
support of it.
    For that reason, it is imperative that the U.S. continues to 
influence the evolution of European views on ESDI. And at the same 
time, the U.S. must evince a willingness to adjust its own approaches 
should it discover the Europeans have a better idea. The opportunity 
for such influence and learning is at hand with Kosovo. The U.S. will 
retain the lead on air operations and would need to lead any ground 
operation against hostile resistance. But war termination aims and 
long-term post-war security policy in the Balkans is now at issue. Both 
will need resolution in the next weeks to months. Both the U.S. and its 
allies have an interest in seeing that Europe--under the aegis of the 
EU and WEU--take the lead over the long term in pacifying Kosovo, 
containing Serbia and stabilizing the region. This can be done in a 
variety of ways. It is worth noting here that our allies will tend to 
follow a collective security approach on this and other issues of 
European security.
    In crafting our approach, the U.S. ought to avoid choices that 
serve to deepen our involvement--and by necessity reduce the influence 
and responsibility of Europe--for the region. We ought to favor 
approaches that promote European responsibility for the region over the 
long term but commit the U.S. in the near term to creating with our 
allies the conditions for their ultimate success. While this implies 
close cooperation with our allies in all aspects of planning for post-
war Kosovo, it also requires closer adherence to a collective defense 
perspective than they may find comfortable.
    Such an approach also places the focus squarely on our diplomatic 
as opposed to our military capabilities. Our diplomats must fashion the 
terms of war termination and post war policy with an eye to their 
affect on our long-term strategic interests with respect to NATO, the 
EU and Europe as a whole. And that means responsibility for successful 
diplomacy is shared by this subcommittee, the full committee and by the 
committee's counterpart in the House.
V. Closing
    Mr. Chalrman, thank you for the opportunity to place my thoughts 
before the subcommittee. I stand ready to answer any questions you or 
other members of the subcommittee may have.
                                 ______
                                 

        Prepared Statement of Assistant Secretary Marc Grossman

    Thank you Mr. Chairman. It is a pleasure to be here today to 
testify before this Subcommittee just two days before the Washington 
NATO summit.
    The Alliance was founded fifty years ago by a generation of 
Americans and Europeans who fought in World War II and witnessed the 
Holocaust. They created this Alliance in large part because they 
believed it was their obligation to ensure that such horrors never 
again occurred on European soil. Today a new generation of political 
leaders, soldiers and diplomats on both sides of the Atlantic are 
determined to uphold that legacy.
    Mr. Chairman, thank you and the committee for the close bipartisan 
support you have offered on NATO.
    I remember well my first visit to your office. You told me that we 
should work to keep this Alliance strong. That sense of bipartisan 
teamwork was evident during the Senate debate and vote on NATO 
enlargement.
    I hope you agree that we have continued this teamwork over the 
course of the last year. Our staffs have worked together closely to 
fulfill the requirements you set for us through briefings and reports 
to the Committee on the new Strategic Concept and on preparations for 
the Summit in general.
    It is also a pleasure to follow Senator Kyl and his testimony 
earlier today. During the NATO enlargement debate some 90 Senators led 
by Senator Kyl passed an amendment laying out clear criteria for NATO's 
updated Strategic Concept. We heard your message and made the criteria 
established by Senator Kyl our own. I am confident that when you see 
the new Strategic Concept unveiled this weekend, you will be satisfied 
that we have met that benchmark.
    Mr. Chairman, in my testimony today I would like to focus on three 
questions:
    (1) What are our goals for the NATO Summit and how do they serve 
U.S. national security interests?
    (2) What does the Kosovo conflict mean for the NATO Summit and the 
Alliance more generally?
    (3) What is our longer-term strategy for Southeastern Europe and 
what role can NATO play in that strategy?
       the washington summit: preparing nato for the 21st century
    Mr. Chairman, our goal for the summit is to prepare NATO to meet 
the challenges of the 21st century. Over the course of the last year 
President Clinton, Secretary of State Albright and Secretary of Defense 
Cohen have all talked about both the need and the opportunity to use 
this summit to set a solid strategic direction and course for the 
future. In doing so, we have been conscious of the need not to alter or 
change NATO's core purpose, which underlies its success.
    President Harry S Truman had it right in his speech at NATO's 
founding on April 4, 1949: He defined the Alliance's purpose in terms 
of defending the common territory, values, and interest of its members. 
That made sense in 1949. It makes sense today.
    If NATO's core purpose has not changed, the security environment 
that we confront today has. Today we must be prepared to deal with a 
world in which threats to the Alliance can come from new directions and 
where conflicts beyond NATO's territory can have an impact on our 
common values and interests. NATO must be able to do as good a job in 
meeting the challenges of the 21st century as it did in dealing with 
the threats of the Cold War.
    When we talk about the future of NATO, it is not because we want to 
change NATO's core but rather because we want to ensure that this 
Alliance is better equipped for the future.
    Based on these three themes, Secretary Albright announced last 
December a seven-part package of initiatives for the Summit.
    Those seven initiatives, which we expect will be approved at the 
Summit, include:

    (1) A Vision Statement;
    (2) The new Strategic Concept;
    (3) An enhanced Open Door Policy;
    (4) The Defense Capabilities Initiative (DCI);
    (5) The Weapons of Mass Destruction Initiative (WMDI);
    (6) A package of Partners Initiatives;
    (7) The European Security and Defense Identity.

    These initiatives are designed to create an Alliance committed to 
collective defense, but also even more capable of addressing current 
and future risks, strengthened by and open to new members, and working 
together with partners to enhance security for the Euro-Atlantic area.
    Some say it would be best for America to stick with the status quo. 
Others claim that NATO is a relic of the Cold War and should go out of 
business. Both views ignore a key lesson we learned from the history of 
the 20th century. We need a strong military Alliance between the U.S. 
and Europe, and it must focus on preparing for the threats of the 
future not of the past. That is why this package of initiatives is so 
clearly in the U.S. national security interest.
    Mr. Chairman, if you would allow me, I'd like to briefly touch on 
two parts of this package of initiatives that I know have been of 
special interest to you and your colleagues.
    The first is the new strategic concept. It is important to remember 
what kind of document the new strategic concept is and what it will and 
will not do. As the President said in his letter to Senator Warner, 
``The Strategic Concept will not contain new commitments or obligations 
for the United States but rather will underscore NATO's enduring 
purposes outlined in the 1949 North Atlantic Treaty.''
    What this document does do is provide a new framework and 
political-military guidance that will create incentives for allies to 
build more flexible forces capable of meeting the broader range of 
possible threats to our common security we must confront today and in 
the 21st century.
    Mr. Chairman, in this connection let me also say something about 
the issue of mandates. There is nothing in this strategic concept that 
will require NATO to have a UN mandate for it to act.
    The 1949 Treaty acknowledges the important role of the United 
Nations in international security and it reaffirms faith in the 
purposes and principles of the UN. Translated into policy, this means 
that while it is obviously preferable to have UN endorsement of NATO 
actions, the Alliance must retain the needed flexibility to act on its 
own.
    Finally, let me say a brief word about our open door policy. 
Senator Smith, I know you were with Secretary Albright in Independence, 
Missouri some weeks ago when we welcomed the three new members into our 
Alliance. At a time when we are dealing with instability and conflict 
in Southeastern Europe, it is important to step back and realize that 
Central Europe is now safe and secure--and that NATO enlargement is a 
large part of that success story.
    Based on the benchmarks NATO set out at Madrid in terms of judging 
candidates' countries in terms of their performance and the Alliance's 
own strategic interest, I do not believe that this summit is the right 
time to extend further invitations for additional new members.
    This, however, only underscores the need to reaffirm our open door 
policy both in word and deed. That commitment will be evident later 
this week not only in what we as an Alliance say but through the 
issuing of a new Membership Action Plan or MAP--a practical plan that 
goes beyond anything we have done in the past in terms of using NATO's 
talent and expertise to help these countries help themselves become the 
strongest possible candidates for the future.
                       kosovo and the nato summit
    Mr. Chairman, as we prepare NATO for the 21st century, we still 
have 20th century work to do.
    The Summit will be largely a working meeting with Kosovo as a 
central theme. We still plan to commemorate NATO's 50th anniversary: we 
have much to honor on that score. But the first focus has to be on 
supporting NATO forces in harm's way.
    The conflict in Kosovo has underscored why we still need a strong 
Alliance between the United States and Europe. It also underscores why 
NATO needs to be more flexible and capable of handling a broad range of 
risks.
The Kosovo crisis:
--shows the need for a new Strategic Concept to prepare the Alliance 
        for the full spectrum of possible missions;
--shows the need for a clear Open Door policy and long-term vision for 
        those countries in the region aspiring to eventual NATO 
        membership and who are assisting the Alliance in the current 
        crisis;
--underscores the importance of a Defense Capabilities Initiative to 
        ensure that American and European forces can operate together 
        effectively in the future; and, finally
--demonstrates NATO's interest in having a close political and military 
        relationship with its Partners that we can rely on in a crisis.

    Mr. Chairman, no one on either side of the Atlantic who has been 
involved in deliberations on Kosovo can imagine how we could have 
responded effectively without NATO. And if we did not already have a 
plan to modernize NATO to meet the needs of such crises, we would have 
to come up with one now. At the same time, let me make it clear that 
our goal is not to involve our Alliance in new situations such as 
Bosnia and Kosovo; our goal is to prevent that need.
    NATO's new Strategic Concept does not commit us to act in new 
Kosovos any more than the old one did. But the more prepared we are to 
respond rapidly and effectively to outbreaks that threaten Europe's 
stability, the more likely it is that we will be able to deter such 
outbreaks.
              a long-term strategy for southeastern europe
    Mr. Chairman, let me conclude with brief remarks on the need to 
stabilize Southeast Europe and on the role we think NATO can play in 
such an effort.
    It can be summed up in two thoughts: first, NATO must prevail in 
the Kosovo conflict and second, we must move, working together with 
Europe, to impement a long-term strategy to stabilize the region and to 
integrate it into the European mainstream. As President Clinton said 
last week in San Francisco, ``If we truly want a more tolerant, 
inclusive future for the Balkans and all of Southeast Europe, we will 
have to both oppose (Milosevic's) efforts and offer a better vision of 
the future, one that we are willing to help build.''
    We never again want to fight in this part of Europe. We must ensure 
that we never again have to. Southeast Europe, as Secretary Albright 
said recently, ``is the critical missing piece in the puzzle of a 
Europe whole and free. That vision of a united and democratic Europe is 
critical to our own security.''
    The first requirement is to focus on strategy aimed at transforming 
this region from Europe's primary source of instability into part of 
its mainstream. In this regard, I call your attention to the Southeast 
Europe stability proposals put forward by Germany, Turkey, and Greece. 
We welcome these types of forward-looking proposals. As the Germans 
rightly noted in their plan, a strategy for this region must have 
several components--political, economic, and security. It will 
eventually require the extensive involvement of many key institutions, 
in particular the OSCE as well as the EU and NATO. NATO's role will be 
critical because security is a prerequisite of any stabilization 
program.
    We will only be able to take the first steps toward building a 
broad, long-term Southeast Europe Initiative at this Summit, but we 
will keep you informed as we move ahead. It will require the 
involvement and support of Congress, if it is to succeed.
    At this Summit, we want to adopt regional stability measures that 
the Alliance can implement on an accelerated basis. These might 
include: more frequent NAC consultations with countries from the 
region, promotion of regional cooperation in the EAPC; better 
coordination of security assistance through PfP; and regionally focused 
PfP activities and exercises.
                                 ______
                                 

      Prepared Statement of Assistant Secretary Franklin D. Kramer

    Mr. Chairman and Members of the Committee:
    I welcome the opportunity to appear before you today. Recent events 
over the past few weeks underscore the vitality of the NATO Alliance, 
an Alliance designed to achieve peace, freedom, and democracy through a 
collective strength derived from the robust defense capabilities of its 
members.
                              summit goals
    At the Summit, Allied leaders will approve a revised Strategic 
Concept that reflects the present and foreseeable security environment 
and focuses on transforming the defense capabilities of the Alliance to 
meet the challenges of the 21st century. While collective defense 
continues to be the core function of the Alliance, future missions 
should include ``out-of-area'' contingencies such as Bosnia and Kosovo, 
which threaten the overall strategic stability of Europe. They should 
also include readiness to respond to threats such as those posed by 
weapons of mass destruction (WMD) and by terrorism. Both the fighting 
in Kosovo as well as the proliferation of chemical, biological and 
nuclear weapons and the means to deliver them demonstrates that the 
Alliance must prepare its military capabilities so it can act when 
required.
    As you know, in taking any such NATO action, it is our strong 
belief that UN Security Council resolutions mandating or authorizing 
NATO efforts are not required as a matter of international law--and, as 
the Kosovo situation has shown, that view is widely shared in the 
Alliance. NATO's actions have been and will remain consistent with the 
purposes and principles of the United Nations--a proposition reflected 
in the Washington Treaty itself. The United States will not accept any 
statement in the new Strategic Concept that would require a UN Security 
Council resolution for NATO to act.
    To ensure that the Alliance has the means, as well as the doctrine, 
to deal with the full range of possible challenges, Secretary Cohen 
proposed a Defense Capabilities Initiative last June and September to 
transform the Alliance's defense capabilities to meet future security 
challenges. The Defense Capabilities Initiative has as its foundation a 
Common Operational Vision. That vision emphasizes development of forces 
that have four core defense capabilities of mobility, effective 
engagement, sustainability, and survivability. NATO's revised Strategic 
Concept will include this common operational vision.
    We have likewise sponsored a WMD initiative to address the growing 
risks to Allied populations, territory and forces posed by the 
continuing spread of nuclear, biological and chemical weapons and their 
means of delivery. Additionally, we have sought to ensure that the 
Alliance can do its part in dealing with risks of terrorism. The Summit 
will lay the groundwork for NATO to use military capabilities to help 
deal with terrorism. Key issues will be: force protection--as Khobar 
Towers demonstrates; responding to terrorist acts; reducing the effects 
of terrorist attacks; and sharing information among militaries so they 
are able to protect themselves and to respond.
                          achieving the goals
    Some have asked what practical difference the new Strategic Concept 
will make? Or, put another way, why will Allies suddenly begin to 
transform their capabilities now to meet this ``common operational 
vision'' when even the 1991 Strategic Concept called for changes in 
mobility and flexibility? The U.S. has made substantial strides because 
we have always had to be mobile. Our logistics and communications 
capabilities are designed to be deployed. The ability to engage with 
precision--be it with PGMs or humanitarian aid continue to be the 
hallmarks of U.S. military operations.
                        allied progress thus far
    There have been several important and encouraging developments that 
have demonstrated our Allies' commitment to the transformation of NATO 
to meet the challenges of the future. Key European leaders are 
personally committed to the process. Last autumn, Prime Minister Tony 
Blair called for a Europe able to speak with one voice and possessing 
military means to back up its decisions. He has said, ``European 
defense is not about new institutional fixes. It is about new 
capabilities, both military and diplomatic.'' He has also said, ``To 
retain U.S. engagement in Europe, it is important that Europe does more 
for itself. A Europe with a greater capacity to act will strengthen 
both the European Union and the Alliance as a whole.'' German Defense 
Minister Scharping has suggested deliberations on a strategic 
reconnaissance capability to be created by European NATO states as well 
as a strategic air transport component that would also be available for 
independent European operations.
    More importantly, key European Allies have begun to match their 
words with action. Last July, the UK completed their Strategic Defense 
Review, laying out the structure of their forces leading into the next 
century. The UK will lease four strategic C-17 or equivalent transport 
aircraft beginning in 2001. Strategic sea lift for rapid deployment of 
forces will be enhanced by the acquisition of 6 ``roll-on roll-off'' 
ships (two are already funded) in 2000.
    Similarly, the Germans and Italians are undertaking major military 
restructuring efforts which, when completed, will provide NATO with 
highly mobile and capable units ready to undertake a wide range of 
roles and missions. French forces have been undergoing substantial 
changes since 1995 in order to make them more mobile and deployable, 
and better able to carry out the Alliance's new missions.
    The Alliance has approved--and the Summit will underscore--the 
importance of a capabilities-based focus to a European Security and 
Defense Identity which emphasizes the need for greater efforts to 
develop European forces capable of dealing with regional crises. ESDI 
done right will lead to a more balanced partnership in any future 
operations.
                  defense capabilities ``in practice''
    The Strategic Concept and the Defense Capabilities Initiative 
provide the political and military guidance for NATO defense planners--
the blueprint--or, if you will, the theory. Kosovo provides a real-
world example of NATO forces rising to the challenge of repression and 
inhumanity to secure peace, freedom, and democracy. Kosovo is an 
application of the Strategic Concept and the Defense Capabilities 
Initiative--or, if you will, the practice.
    NATO's operations in Kosovo--as well as in Bosnia--highlight the 
importance of the key elements of the Defense Capabilities Initiative--
mobility, sustainability, survivability and precision engagement. 
Kosovo demonstrates that, to achieve its objective, NATO must be able 
to get to the problem, to attack effectively with precision munitions, 
to sustain the effort and to be survivable in a hostile environment. 
What we have been able to do in Kosovo has been substantial. The 
Alliance has promptly deployed for the air campaign against the Federal 
Republic of Yugoslavia some 700 aircraft (over half of them U.S.), and 
more will likely be added. These forces have been highly effective in 
the conduct of the air campaign. Likewise, the Alliance has deployed 
since 1995 a substantial peacekeeping force in Bosnia. In contrast to 
Kosovo, nearly 80% of SFOR, and nearly 100% of the NATO forces 
currently serving on the ground in the Former Yugoslav republic of 
Macedonia, are European and Canadian. The SFOR air component of 117 
NATO aircraft for Bosnia reflects a contribution of 18 U.S. planes and 
99 European and Canadian craft.
    Despite the demonstrated vitality of the Alliance, Operation Allied 
Force also illustrates the striking need for the Defense Capabilities 
Initiative. While thirteen Allies are participating in air operations 
in and around Kosovo, the U.S. is shouldering the greatest proportion 
of the operation, particularly as the military effort intensifies. As 
Italian PM D'Alema has noted, Europe spends 60% of what the U.S. spends 
on defense, but only enjoys 10% of the capabilities. This is what the 
Defense Capabilities Initiative is designed to change.
                                 kosovo
    During the Summit we will continue to be engaged in Kosovo. The 
Alliance is firmly committed to ending the ethnic cleansing in Kosovo, 
and to providing a safe and secure environment for those who have been 
displaced. We have read a sad litany of war crimes or violations of 
international humanitarian law in Kosovo: ethnic cleansing; the 
detention and execution of military-aged men (tens of thousands 
unaccounted for); the wanton destruction of villages and towns across 
Kosovo; and the forcible displacement of over 1 million ethnic 
Albanians.
    There should be no question as to what the U.S. and its NATO Allies 
intend to accomplish by taking action in Kosovo: a verifiable stop to 
all military action and the immediate end of violence and repression; 
withdrawal from Kosovo of all Serb military, police and paramilitary 
forces; restoration of order there by stationing of an international 
peacekeeping force with NATO as its core; unconditional and safe return 
of all refugees and displaced persons as well as unhindered access to 
them by humanitarian aid organizations; and the establishment of a 
democratic political framework agreement for Kosovo, in conformity with 
international law. Our principal priority, in conjunction with the air 
campaign, is to ensure that the refugees have food, shelter and 
required care.
    One area in which our Allies are contributing the lions' share of 
resources is in the humanitarian effort on the periphery of Kosovo. On 
my recent trip to the refugee camps in and around Skopje and in meeting 
with General Jackson, the UK Commander of the Allied Rapid Reaction 
Force, I observed how strongly engaged our Allies are in this mission. 
NATO solidarity is indeed a reality.
    No one can be sure when this campaign will end. But we must win. It 
is vital that we stay the course. This means not only through military 
power but also through our humanitarian efforts with both Allies and 
Partners. This brings me to my last connection among the Strategic 
Concept, the upcoming Summit, and Kosovo: the relationship between NATO 
and its Partners. Current operations include the cooperation of 
Partners (for example, port facilities; over-flight rights). The 
Partnership for Peace (PFP) and the Euro-Atlantic Partnership Council 
(EAPC) have given us the ability to call upon partners easily and to 
consult regularly with them. Any post-conflict implementation force 
will utilize the participation of NATO partners, underscoring the need 
for the Summit initiatives designed to guide partner participation in 
planning, deciding, and implementing certain Alliance missions. We will 
also announce at the Summit a plan to upgrade the forces that partners 
will have available for future NATO-led operations. The result will be 
to give partners a political stake in the process and to give NATO 
wider military options involving partners.
                               conclusion
    Kosovo illustrates the complexities of the evolving security 
situation in Europe. It represents not only a challenge but also an 
opportunity for us to solidify NATO's role as the principal institution 
for transatlantic political and military engagement in Europe, and the 
source of stability and security for the Euro-Atlantic region for the 
next fifty years. Kosovo is an acknowledgement of our basic position 
that NATO should be the instrument of choice when we and our Allies 
decide to act together militarily.
    In sum, we are determined to maintain the Alliance's freedom of 
action and transform its defense capabilities to meet the challenges of 
the 2lst century. We are determined to use those capabilities to 
achieve the values and objectives of the Alliance. The NATO Summit and 
its associated initiatives will set us firmly on course to build a new 
NATO for the new century.
                                 ______
                                 

                 Prepared Statement of Senator Jon Kyl

    Mr. Chairman, I want to thank you for holding these important 
hearings and for inviting me here to testify. As NATO celebrates its 
fiftieth anniversary and the accession of three new members it is 
useful to take stock of its accomplishments and assess its vision for 
the future. But any assessment must remain tentative in light of the 
war in Kosovo, This conflict and its resolution will set the tone for 
the future far more definitively than any Summit declaration. I will 
try to step back somewhat from current events to assess the longer term 
trends and enduring realities with which NATO must deal while drawing 
certain immediate lessons from the Kosovo war.
    To state the obvious, NATO has been a spectactularly successful 
enterprise. After its creation in 1949, it was instrumental in helping 
prevent further Soviet gains in Europe. Under American leadership, NATO 
was key to winning the Cold War. Today, most of the states of Eastern 
Europe are now making great strides toward democracy and prosperity. To 
what does NATO owe its success? What can we, the Senate, do to guide 
the next decades of the Alliance?
    Mr. Chairman, it was with these thoughts in mind that I offered an 
amendment last year when we took up the enlargement of the Alliance. I 
was pleased that it received very broad bipartisan support from 90 
Senators. That overwhelming vote was the latest reflection of the 
strong bipartisan support that NATO has enjoyed over its lifetime.
    In that amendment, the Senate set forth ten principles that should 
guide U.S. policy as NATO revises its Strategic Concept. NATO revised 
its Strategic Concept in 1991 to take into account the changes brought 
on by the collapse of the Soviet Union and the end of the Cold War. 
What the Senate said last year was that the core concepts of the 1991 
Strategic Concept remain valid and should be reflected in the revised 
Strategic Concept. Therefore, we should assess the new Strategic 
Concept to be unveiled at the Summit next week against the original and 
against the bipartisan expression of the Senate's vision:
    The first two points of the Kyl amendment are that NATO is first 
and foremost a military Alliance and is the principal foundation for 
the defense of the security interests of its members against external 
threat. Based on its shared democratic values, NATO's success in 
securing peace is a function of its military strength and its strategic 
unity. This is the irreducible core of the Alliance that must be 
preserved as it adapts to new circumstances. NATO is not a cooperative 
security arrangement. Nations working together in a cooperative 
security arrangement may or may not defend each other in case of 
aggression. A cooperative security arrangement doesn't define the 
territory to be defended or the means to do so. NATO does precisely 
these things and therein lies its unique contribution.
    Some view military alliances as obsolete. They think that other 
regional institutions such as the Organization for Security and 
Cooperation in Europe (OSCE) or global bodies such as the U.N. can 
gradually take the place of NATO. While these institutions have a 
useful role to play in some instances, they cannot and should not 
substitute for the formal commitment and integrated military structure 
of the Atlantic Alliance. NATO is and should remain capable of 
undertaking operations in defense of its interests in accord with its 
own decision making processes and without reference to the permission 
of other bodies. Running a war by consensus within the Alliance is 
difficult enough, as we are seeing. The thought of doing so through the 
U.N., as some propose, is totally impractical and dangerous. There have 
been recent press reports of delay in blockading oil shipments to 
Serbia because of French concerns about the absence of a U.N. mandate. 
Meanwhile American pilots--and they are overwhelmingly American on the 
most difficult missions--are at risk striking oil refineries. This 
state of affairs is unconscionable. The administration is to be 
commended for learning from its earlier overly sanguine approach to the 
efficacy of international organizations and the rhetoric of collective 
security. It should not return to those ways.
    The third point is that strong United States leadership of NATO 
promotes and protects vital national security interests. Not major 
interests; not minor interests; vital interests--interests we as a 
nation are prepared to spend our blood and treasure on. Reasonable 
people may differ on how far America's vital interests extend and 
Kosovo is a case in point. But for 50 years America's vital interests 
have included Europe's democracies. The growth in the number of 
Europe's democracies is in large measure a result of the success of 
NATO in its first 40 years. The Washington Summit will celebrate the 
recent accession of three new Allies--Poland, Hungary and the Czech 
Republic--countries enabled by the success of NATO to return to their 
earlier democratic roots.
    Fourth, the United States maintains its leadership role of NATO by 
sustaining a superior military force, through stationing of combat 
forces in Europe, and by providing officers for key NATO commands. 
Hosting the armed forces of another country isn't always popular, even 
armed forces such as America's whose behavior is usually exemplary. 
Armed forces can sometimes be noisy neighbors and occasional tragedies 
occurs. Such routine inconveniences and occasional tragedies are the 
prices of freedom. The administration is to be commended for its 
insistence that the United States retain the command of the Alliance's 
Mediterranean command, whose forces are crucial to the projection of 
American power into the Middle East and Persian Gulf.
    Fifth, NATO members will face common threats to their security. My 
amendment listed four categories of threats. The most serious is the 
potential re-emergence of a hegemonic power threatening Europe. The 
unstated concern was, of course, Russia. Mr. Chairman, we all hope that 
Russia will succeed in its difficult transition and emerge a prosperous 
and stable democracy. We should do our best to assist Russia's 
transition, but we should recognize that Russia's future is beyond our 
capacity to positively influence except at the margin. Recent NATO 
actions in Kosovo certify that we can have a negative impact on the 
relationship, on the other hand. Similarly, we do no favors to Russia's 
democrats if we yield to the demands of hard liners in the Duma or the 
Defense Ministry for relief from arms control obligations, or passively 
acquiesce to continued Russian military presence in the Newly 
Independent States.
    The adaptation of the Conventional Forces on Europe Treaty and its 
ability to command support by the Senate is relevant in this regard. If 
an adapted CFE Treaty fails to address in a meaningful way the real 
security problems within its scope--namely problems in the Newly 
Independent States exacerbated by Russian stationed forces in Moldova 
and Georgia and massive arms aid to Armenia in its conflict with 
Azerbaijan--it will rightly be seen as undeserving of ratification. The 
tentative agreement on March 30 for Russian withdrawal from Moldova and 
reductions in Georgia will be a welcome step if carried out. It goes 
without saying that CFE adaptation should not prejudice NATO's ability 
to deploy forces within its members or undertake further enlargement as 
new aspirants achieve high standards of functioning democracy and 
military commonality. In establishing relations between NATO and 
Russia, we must strike a balance between consultation when constructive 
and exclusion on those growing number of occasions when Russia's goals 
are directly inimical to our own and Russia measures its policy success 
by the damage it can do to America's global role.
    A renewed threat from a hegemonic power is, fortunately, remote. A 
threat from rogue states and gangster regimes which possess weapons of 
mass destruction and seek the means to deliver them is here today. To 
this threat, NATO's response to these threats has reflected little 
unity of purpose. There is no Alliance consensus on relations with 
Iran. Allies have directly challenged and undercut our sanctions aimed 
at dissuading Iran from sponsoring terrorism. Iran may be within five 
years of attaining a nuclear weapon capability and is developing a 
missile capable of reaching Western Europe, both with Russian 
assistance. In Iraq, only Britain joins us in ongoing military 
operations. Some Allies actively undermined UNSCOM inspections last 
year and now seek to weaken the U.N. sanctions regime in their haste to 
gain commercial advantage. Allies voice a preference for responding to 
proliferation through diplomatic means rather than through enhanced 
defense efforts. There is a large and growing gap between the United 
States and Europe in both political will and military capabilities to 
respond to such threats. The determination of the United States to 
construct a national missile defense risks further widening this gap 
unless Europe moves quickly.
    NATO faces potential threats to the flow of vital resources. This 
is not much in mind in this era of prosperity and declining commodity 
prices, but recall that assuring energy supplies, particularly to 
Europe, was central to the Gulf War. We can make no easy assumption 
that such threats are a thing of the past.
    NATO also may face threats to its security stemming from ethnic and 
religious animosities, historic disputes and undemocratic leaders. It 
is not clear to me that there was sufficient threat to justify our 
involvement in Kosovo. But the circumstances there are the kind of 
conflict that could represent a threat to vital interests and our 
Strategic Concept should recognize that fact. Kosovo points up a very 
disturbing state of affairs: our European Allies have the greatest 
difficulty, and are sometimes incapable, of responding in a politically 
unified and militarily proficient way to a threat to the stability and 
security of Europe. Our aircraft carry the bulk of the war because they 
are the only ones capable of undertaking most of the missions. Allies 
categorically demand that an American presence remain in Bosnia. It is 
clearly not sustainable that we should carry almost the entire burden 
of Western security outside Europe and a large measure of it within 
Europe. America's armed forces are not capable, and its people are not 
willing, to carry both European and global responsibility without the 
assistance of those equally able to afford to do so and geographically 
more at risk. In any event, the particular circumstances of our 
involvement in Kosovo under the current Strategic Concept should not be 
cited as proving that our new Strategic Concept should preclude a NATO 
response to a threat arising out of ethnic conflict. A NATO response 
may be necessary in some circumstances; whether it was in Kosovo is 
open to debate. If Kosovo was the wrong decision, it is not the fault 
of the Strategic Concept but a misapplication of those concepts.
    The next two points are that the core mission of NATO is collective 
self defense and all Allies must sustain the ability to effectively 
respond to common threats. This will require that NATO members possess 
military capabilities to rapidly deploy forces over long distances, 
sustain operations for extended periods of time, and operate jointly 
with the United States in high intensity conflicts. Mr. Chairman, most 
Allies are slowly but inexorably losing the ability to field the kind 
of highly-trained, well-equipped forces that can operate in even a 
medium-intensity environment without unacceptable risk of casualties. 
Allied armed forces are slipping from one to two generations behind 
American forces in critical new technologies, and the gap is widening 
as the U.S. once again undertakes overdue investment in modernization. 
General Klaus Naumann, the German head of NATO's Military Committee, 
has warned that the day may soon be coming when European and American 
forces may no longer be able to fight alongside each other on the same 
battlefield because of the rapidly expanding gap in their combat 
capabilities. The 1991 Strategic Concept stated that NATO's military 
forces could be safely reduced; this year I would hope to see an 
affirmation that they must be sustained in number and modernized to 
meet increased threats.
    The amendment notes that NATO's Integrated Military Structure 
underpins NATO's effectiveness by embedding members in a cooperative 
planning process and assuring unity of command. As Europe seeks its 
Security and Defense Identity, and new and more flexible command 
arrangements are put into place, we should assure that they are 
undertaken within the framework of the transatlantic Alliance. A 
European Security and Defense Identity that excludes Turkey would 
directly call into question the survival of NATO. Europe's defense 
identity should be measured by the creation of serious military 
capability, not artificial diplomatic constructs, and by its ability to 
successfully respond to crises within Europe while the U.S. takes the 
lead in extra-European contingencies.
    The ninth point of the amendment addresses nuclear issues. It 
states that nuclear weapons will continue to make an essential 
contribution to deterring aggression, especially aggression by 
potential adversaries armed with nuclear, chemical, or biological 
weapons, a point on which the 1991 Strategic Concept was silent. I 
would hope to see it reflected in the new version since this threat is 
now with us in a much more immediate way.
    A credible NATO nuclear posture requires the stationing of U.S. 
nuclear forces in Europe to provide an essential political and military 
link between Europe and North America and will require widespread 
European participation in NATO nuclear roles. This point was explicitly 
made in the 1991 Strategic Concept and should remain. While the 
prospects for nuclear use are indeed remote, a large part of the reason 
that this is the case is precisely because of the credibility of the 
NATO nuclear deterrent. Moreover, that deterrent is a major reason 
against the proliferation of nuclear weapons by countries directly 
under its shelter, aspiring to NATO membership, or reliant on the 
stable international order of which NATO is the central pillar. The 
credibility of NATO's deterrent is of far greater value than the 
Nonproliferation Treaty in this regard.
    Mr. Chairman, a declaration of no-first-use of nuclear weapons 
would add absolutely nothing to NATO's long-standing restraint on any 
use of force which is a function of the democratic societies it serves. 
But it would greatly undermine the Alliance's ability to deter use of 
chemical or biological weapons which are today in the arsenals of rogue 
states and gangster regimes. Hints of nuclear use and consequent 
uncertainty about the American response probably contributed to Iraq's 
decision not to employ its arsenal of weapons of mass destruction 
during the Gulf War. The administration is to be commended for 
resisting politically popular but dangerously naive appeals by German 
and Canadian leaders for reconsideration of NATO's time-tested 
doctrine.
    The final point of the Kyl amendment addressed burdensharing. The 
1991 Strategic Concept stated that ``the European members of the 
Alliance will assume a greater degree of the responsibility for the 
defense of Europe.'' It is the view of the Senate as expressed by my 
amendment that the responsibility and financial burden of defending the 
democracies of Europe should be more equitably shared. I would suggest 
that the reverse has occurred, and that current trend lines are going 
the wrong direction. Kosovo is once again a case in point. I would 
appreciate a statement from the administration if it disputes this 
judgment.
    Mr. Chairman, as the letter which you and I, the majority leader 
and the leadership of this Committee sent to the President in February 
stated, NATO is a trade-off for the United States. The United States is 
committed to help in the defense of Europe in return for having Allies 
that are capable of and committed to defending against foes that 
threaten the Alliance from both inside and outside Europe. If the 
Europeans are permitted to shift the entire burden of extra-European 
security to the United States, then public support for NATO will 
wither. I am seriously concerned that the tone of the new Strategic 
Concept will emphasize crisis management and peacekeeping in Europe and 
shy away from any suggestion that NATO may need to address extra-
European threats to NATO's interests. I am further concerned that, on 
present evidence, the new Strategic Concept will freeze unresolved 
arguments at some lowest common denominator rather than register 
agreement on fundamentals. If we cannot resolve fundamentals now, it 
will be infinitely more difficult in the midst of a conflict involving 
our vital interests.
    At its fiftieth anniversary, NATO can count its blessings and take 
pride in its achievements. Today we face a short term crisis in the 
Alliance because of the war its forces are fighting in Kosovo. But the 
myriad other challenges we face have resulted in what I see as a slow 
but steady withering of Alliance cohesion, a gradual loosening of 
bonds. Looking beyond Kosovo, I think that this deterioration can be 
reversed. What is needed is confident and consistent and unified 
leadership on our part. Lady Margaret Thatcher stated at a Heritage 
Foundation speech that ``America's duty is to lead: the other Western 
countries' duty is to support its leadership.'' Mr. Chairman, it would 
be undiplomatic for an American to state this truth quite so boldly. 
But I can offer no better prescription to my colleagues here for an 
enduring Atlantic Alliance of free nations. And, unity on our part is a 
prerequisite to European nations following our leadership.
                                 ______
                                 

             Prepared Statement of Dr. F. Stephen Larrabee

          nato's adaptation and transformation: key challenges
    Mr. Chairman, I welcome the opportunity to share with you and your 
distinguished committee my views on the key challenges facing NATO at 
the Washington Summit and beyond. This is a large and complex subject. 
To do full justice to it would require more time and space than 
permitted here. In my testimony, therefore, I would like to concentrate 
on what I see as the three main challenges facing NATO at the 
Washington Summit and beyond:

--First, to adopt a new Strategic Concept which will prepare NATO to 
        meet the challenges it is likely to face in the coming decades.
--Second, to manage the enlargement process in a manner that enhances 
        European stability.
--Third, to achieve a satisfactory settlement of the Kosovo conflict 
        that ensures the realization of NATO's principal objectives and 
        preserves the cohesion of the Alliance.

    Let me address each of these issues separately.
                        i. the strategic concept
    I believe that the main focus at the Washington Summit should be on 
deciding NATO's strategic purpose(s) in the coming decade. The summit 
provides an important opportunity to articulate a bold vision of NATO's 
purposes and to restructure its forces to meet the challenges it is 
likely to face in the coming decades. Many of these challenges are on 
Europe's periphery or beyond Europe's borders. The Alliance therefore 
needs to develop a broader definition of the threats to its interests 
and restructure its forces to adequately address these new threats and 
challenges.
    NATO must change because the nature of the security threats and 
challenges has changed. During the Cold War NATO faced a threat of a 
massive invasion from the East. Its defense posture was structured to 
deter such a threat. Today NATO faces a much more diverse set of risks 
and challenges. These include ethnic conflict, threats from weapons of 
mass destruction, terrorism.
    The locus of these threats and challenges, moreover, has shifted. 
Today they are no longer on the Central Front--as was the case during 
the Cold War--but on Europe's periphery and beyond Europe's borders. 
Thus the Alliance needs to develop the military capability to deal with 
this broader range of threats and challenges. In particular, this means 
that NATO has to acquire the capability to deploy and sustain troops 
outside NATO territory.
    Some critics argue that NATO does not need to change--that it has 
worked well for fifty years and we should not tamper with it. In short, 
``If it ain't broke, why fix it?'' But this view ignores the 
significant changes in the security environment that have taken place 
since 1989. I do not believe, Mr. Chairman, that it will be possible to 
sustain public support for NATO over the long run, either here or in 
Europe, if the Alliance is primarily designed and configured to defend 
against a threat that has largely disappeared while at the same time 
ignoring the most pressing threats to allied security, especially those 
in Europe. This, in my view, is a recipe for the atrophy and 
disintegration of the Alliance, not its revitalization.
    At the same time, the nature of the U.S. relationship with Europe 
needs to change. We need partners willing and capable of sharing the 
burdens of responsibility. Our European allies need to be able to share 
more of the responsibilities, including the military sphere, to deter 
threats to our common security interests. As noted, many, if not most, 
of these threats are beyond NATO's borders.
    This is not a question of Europe needing more forces. Europe today 
has more than enough forces. The problem is that European forces are 
not structured to deal with the type of security threats that the 
Alliance is likely to face in the future. Most European forces--Britain 
and France excepted--are still configured to defend Alliance borders 
which are no longer threatened. They need to be reconfigured in order 
to be able to project--and sustain--power beyond the Alliance's 
borders.
    The forces also need to be interoperable--that is, they need to be 
able to work together effectively as part of a coalition. Thus we need 
to ensure that as these forces modernize they do so in ways that allow 
them to operate effectively together. However, true ``force 
compatibility'' requires not just compatible military forces, but the 
development and refinement of a common operational doctrine. This is 
one of the goals of the Administration's initiative on a ``Common 
Operational Vision.''
    The new Strategic Concept, to be adopted at the Washington Summit, 
should be seen against this background. It needs to identify the new 
challenges that the Alliance is likely to face in the coming decades 
and to provide NATO planners with guidance on how NATO forces should be 
structured to deal with these challenges.
    Several issues are important in this regard:
The increased importance of non-Article V missions
    Collective Defense (Article V) should remain a core Alliance 
mission. But in the future most of the challenges that NATO faces will 
be non-Article V challenges and will not involve a direct threat to 
NATO territory. Thus the Alliance will increasingly need the capability 
to deploy forces outside NATO territory. This will put new demands on 
NATO defense planning and will require forces that are more mobile, 
flexible, sustainable, survivable, and interoperable.
Reharmonizing U.S. and European Strategic Priorities
    Second, and equally important, the new Strategic Concept needs to 
reharmonize U.S. and European strategic priorities. These priorities 
are increasingly out of sync. U.S. force planning is driven by the need 
to prepare for high-intensity combat, particularly in areas beyond 
Europe. European forces, on the other hand, are largely focused on 
defending borders that are no longer threatened and on peacekeeping.
    The Strategic Concept provides an important opportunity for 
addressing these deficiencies. While not abandoning collective defense 
as a key mission, the Strategic Concept should emphasize the need for 
the Alliance to be able to deploy forces outside NATO territory--which 
is where most future threats are likely to be located. As noted, this 
will require more mobile, flexible, sustainable, survivable, and 
interoperable forces.
    Moreover, these forces will need to be able to conduct a full 
spectrum of missions, including those in high-intensity conflicts. A 
new Strategic Concept that limits NATO to just peacekeeping missions 
will not reharness overall U.S.-European strategic priorities. Nor will 
it address the ``mission gap'' between the U.S. and European forces. 
Unless this gap is diminished, it will be increasingly difficult for 
U.S. and European forces to operate effectively together.
The Mandate Issue
    Finally, the Strategic Concept needs to preserve NATO's freedom to 
act in a crisis. While it is preferable that NATO obtain a mandate from 
the UN for any non-Article V actions, there are some instances--such as 
Kosovo--where military action on NATO's part may be required even 
without a UN mandate. Such actions should be the exception and not the 
rule. But it would be unwise to include language in the Strategic 
Concept that would prevent NATO from acting without a UN mandate. The 
Alliance must preserve the right and freedom to act when its members 
deem, by consensus, that their security interests are threatened.
                            ii. enlargement
    The second key challenge NATO faces is managing the process of 
enlargement in a way that enhances European stability. At the Madrid 
Summit in July 1997 the Alliance not only decided to invite three new 
members to join--Hungary, Poland, and the Czech Republic--but it also 
agreed to maintain an ``open door'' to future members.
    I believe that the decision to maintain an open door to new members 
beyond the first three was historically right and justified. However, 
the process of further NATO enlargement will have to be managed 
prudently. NATO will have to balance five competing demands:
The Need to Maintain NATO's Cohesion and Military Effectiveness
    As NATO enlarges, it must be able to maintain its core competencies 
and military effectiveness. New members need to be able to contribute 
not only to NATO's old missions but to new ones as well. Collective 
defense (Article V) will remain a core mission. However, most of NATO's 
operations in the future are likely to involve crisis management 
missions. Thus, one of the key criteria for selecting new members ought 
to be how well candidates can contribute to the full spectrum of new 
missions. This would help to give NATO enlargement a stronger strategic 
rationale as well as preserve NATO's core competencies.
The Need to Keep the Open Door Credible
    NATO will need to find ways to ensure that the open-door policy 
remains credible. If NATO postpones a second round of enlargement too 
long, many prospective members may begin to lose hope of ever attaining 
membership. This could undercut democratic forces and slow the momentum 
toward reform in these countries.
The Need to Digest the First Round
    The fate and timing of the second round will, to a large extent, 
depend on how well NATO succeeds in integrating the first three new 
members. If they perform poorly and do not live up to expectations, 
this could diminish the willingness of NATO members--and particularly 
the U.S. Senate--to support a second round of enlargement. Thus a lot 
will depend on how well the first new members meet their membership 
obligations.
The Need to Maintain a Viable Partnership with Russia
    As in the first round of enlargement, NATO will need to take into 
consideration the impact of enlargement on relations with Russia. 
Moscow will need time to adjust to the new strategic realities and NATO 
should be careful not to overburden the Russian political process. This 
could spark a dangerous backlash in Russia. At the same time, NATO will 
need to maintain momentum in the enlargement process and ensure the 
credibility of its open-door policy. If NATO acquiesces to Russian 
demands or accepts Russia's attempts to draw new ``red lines,'' this 
could have a negative political impact on many prospective aspirants, 
especially the Baltic states, and reinforce imperial nostalgia in 
certain parts of the Russian political spectrum.
The Need to Maintain Internal Consensus
    Finally, NATO will need to maintain an internal consensus within 
the Alliance. At the moment, there is no consensus within NATO about 
who should be included in a second round or when the next round should 
take place. Some members, such as France and Italy, have pressed for 
the inclusion of Slovenia and Romania in an early second round. Others, 
such as Denmark and Norway, favor including the Baltic states. NATO 
will have to balance these internal pressures to forge an Alliance-wide 
consensus. But as the process of enlargement unfolds, NATO should not 
lose sight of its larger interests. Enlargement should not simply be 
reduced to a game of internal ``horse trading'' devoid of a larger 
strategic rationale. Otherwise it could end up weakening rather than 
strengthening NATO.
                      enlargement and new missions
    There is, moreover, an important linkage between enlargement and 
NATO's new missions. If it is to live up to its promise--and maintain 
public support, especially in the United States--NATO needs to remain 
an effective military alliance. That was one of the key messages that 
emerged from the Senate debate on NATO ratification. Thus NATO needs to 
both enlarge and take on relevant new missions. This is the best way to 
ensure that it remains a militarily effective alliance well into the 
21st century and also to disarm critics who argue that enlargement will 
dilute NATO and turn it into a talk shop.
    Clarifying NATO's strategic purpose will also help manage and 
structure the enlargement process. Potential new members will not only 
have to be able to contribute to NATO's traditional missions such as 
collective defense but also to NATO's new missions such as crisis 
management and peacekeeping. Thus one criterion--but by no means the 
only criterion--for judging potential candidates for membership ought 
to be how they contribute to NATO's new as well as its traditional 
missions. This would provide a yardstick for measuring aspirants' 
performance and readiness for membership.
    A candidate's performance alone, however, does not automatically 
ensure membership. It is a necessary but not sufficient condition for 
membership. Membership also needs to be in NATO's strategic interest. 
Some candidates may score well in a number of key areas--democratic 
reform, viable market economy, civilian control of their military, etc. 
However, a good ``scorecard'' alone does not automatically guarantee 
membership. There still must be a strong consensus within NATO that 
admitting a particular candidate is in NATO's strategic interest.
                        timing of the next round
    NATO needs to ensure that enlargement remains an open process. 
There should be no arbitrary ``red lines.'' No country should be 
excluded simply because of geography or because it was once part of the 
Soviet Union. At the same time, there are strong reasons not to rush 
the next round of enlargement.
    --First, digesting the first three members is likely to be 
difficult. There is a growing recognition that digesting the first 
three members is likely to be more difficult than originally assumed 
and that they will need considerable time before they can make the 
adjustments needed to be fully capable allies. It is important that the 
first round goes well and is perceived as having been successful. 
Otherwise, it will be difficult to get support for a second round.
    --Second, at the moment there are no clearly qualified candidates 
for a second round. Slovenia is the best qualified for admission on 
political and economic grounds. But it adds little to the Alliance's 
military capability. Romania looked like a strong candidate for a 
second round at the time of the Madrid Summit. But its chances have 
actually declined since Madrid as a result of its internal 
difficulties, especially the slowdown in economic reform. By contrast, 
Slovakia's chances have improved since the former Prime Minister 
Vladimir Meciar's defeat in the September 1998 elections. The new 
Slovak government under Mikulas Dzurinda has put renewed emphasis on 
joining NATO and the EU. But it is too soon to tell whether its 
performance will match its rhetoric. Austria may eventually apply for 
membership, but not until after the next election, at the earliest. 
Besides it would have to significantly increase its defense spending--
which is well below the NATO average--before it could be seriously 
considered for admission. The last thing the Alliance needs is new 
``free riders.'' Lithuania's chances have improved lately, but it still 
remains a long-shot, especially because of the possible impact of its 
admission on relations with Russia.
    In short, there are no clear-cut candidates for a second round. All 
the leading candidates have some liabilities and will need time to 
improve their qualifications. Thus NATO should not rush into an early 
new round of expansion.
    --Third, there is no consensus within the Alliance for an early 
second round. With the exception of France, and to a lesser extent 
Italy, there is no support within the Alliance for issuing new 
invitations or singling out prospective candidates at the summit. 
Indeed, some members, especially Britain, are strongly opposed to an 
early second round. Thus any attempt to push for issuing new 
invitations at the summit would meet strong resistance within the 
Alliance and could result in the emergence of a disruptive dispute that 
could make it more difficult for the Administration to get support on 
other important issues such as the Strategic Concept and DCI.
    --Finally, Russia will need time to adjust to the new strategic 
realities. While Russia should not be given a veto over further 
expansion, proceeding with a second round too quickly--before Russia 
has had a chance to digest the impact of the first round--could 
inhibit, rather than facilitate, this process. This is all the more 
important because Russia is nearing the end of the Yeltsin era. His 
successor may not have the same stake in good relations with the West 
that Yeltsin had. Hence Russian sensitivities will need to be carefully 
managed.
              maintaining the credibility of the open door
    These factors argue for a deliberate, measured approach to further 
enlargement--one that gives NATO time to sort out its strategic 
priorities and digest the first round and also gives Russia time to 
adjust to the new strategic situation, while making clear that NATO 
enlargement is a continuing process.
    At the same time, NATO needs to enhance the credibility of the open 
door. Otherwise many aspirants will lose hope and their incentive to 
continue to pursue domestic reforms could be weakened. In particular, 
NATO needs to lay out a clearer road map at the Washington Summit which 
identifies concrete steps that will be taken to ensure that the door 
truly remains open.
    NATO should announce at the summit that it will review the 
performance of aspirants at a special summit in 2001, with an eye to 
identifying specific candidates for a second round if their performance 
in the interval warrants it. Foreign and defense ministers should be 
tasked with preparing a progress report similar to the Report on 
Enlargement published by NATO in September 1995, which could be 
presented at the ministerial meeting prior to the special summit. This 
report should assess the progress made by the aspirants and identify 
potential candidate-members for a second round. Invitations to new 
candidate-members could then be issued at the special summit. The new 
candidate-members could thus formally join the Alliance some time in 
2002.
    Such a procedure would help enhance the credibility of the open 
door and give prospective candidate-members an incentive to undertake 
the necessary reforms to improve their chances for membership. It would 
also buy time for NATO to digest the first round and give Russia time 
to gradually accustom itself to the fact that NATO enlargement is an 
ongoing process.
                     iii. kosovo and nato's future
    The third and most pressing challenge facing the Alliance is 
successfully managing the conflict in Kosovo. Kosovo is a defining 
issue for the Alliance. How the conflict is eventually resolved will 
have a major impact on NATO's future, especially NATO's ability to 
carry out its new missions. A failure to achieve NATO's objectives in 
Kosovo would undermine NATO's credibility and ability to act as an 
effective security manager in post-Cold War Europe.
    In my view, NATO was right in undertaking the current military 
action in Kosovo. If the U.S. and its allies had sat idly by and done 
nothing to stop Milosevic's campaign of ethnic cleansing, NATO's 
credibility and effectiveness would have been seriously undermined. 
Many Europeans and Americans would have asked: What good is NATO if it 
cannot deal with the most pressing security problem in Europe? 
Moreover, this would have been a serious risk that the countries of 
Southeastern Europe would have eventually been destabilized. Thus NATO 
had to act, both for geostrategic as well as moral reasons.
    At the same time, I think there is a need to reassess NATO's 
strategy in light of the new realities. In my view, airpower alone is 
unlikely to achieve NATO's objectives. Eventually ground troops may be 
required. But even if NATO ultimately can achieve its objectives 
without the use of ground troops, we should at least begin preparing 
for their possible use--NOW. This would send an important political 
signal to Milosevic about NATO's determination and could affect his 
willingness to comply with the objectives NATO has set out.
    In addition, we need to do more to improve the situation of the 
refugees currently camped in Albania and Macedonia. They represent a 
potentially explosive political problem. If their plight is not eased 
soon, both Albania and Macedonia could be destabilized, creating the 
very situation we ostensibly intervened to prevent. Thus stepping up 
humanitarian relief for the refugees--including temporary relocation, 
if necessary--must be a top Alliance priority.
            a stabilization strategy for southeastern europe
    Finally, the U.S. and its European allies need to look beyond the 
current conflict in Kosovo and develop a comprehensive, long-term 
stabilization strategy for Southeastern Europe. This strategy should 
have a political-economic and security component and should be designed 
to integrate Southeastern Europe into a broader Euro-Atlantic 
framework.
    The European Union should take the lead in promoting the economic 
component. This should include a broad plan for the economic 
reconstruction not just of Kosovo but of the entire region. Particular 
emphasis should be put on developing the transportation and 
communication infrastructure throughout the region. The end goal should 
be closer association and eventual economic integration of the region 
into the European Union.
    Participation in this reconstruction plan should be open to all 
governments in the region willing to commit themselves to the 
establishment of a viable market economy, promotion of democratic 
reform and the protection of minority rights--including Serbia. While 
Serbia would not qualify for such reconstruction assistance unless 
there were to be a significant change of regime in Belgrade, no 
stabilization of Southeastern Europe will be complete over the long run 
without a democratic and stable Serbia.
    Including Serbia in the reconstruction offer would provide an 
incentive for internal change in Belgrade. As other countries in the 
region begin to prosper and be more closely integrated into a 
European--and Euro-Atlantic--framework, many Serbs are likely to ask 
why they should be left out from sharing the economic and political 
benefits of closer ties to Europe which their neighbors are enjoying. 
Thus, such an offer of assistance--predicated on the conditions 
outlined above--could serve as a stimulus for internal change in Serbia 
and contribute to the overall stabilization of the region over the long 
run.
    This stabilization strategy should also contain an important 
security component. Once the Kosovo conflict is over, the U.S. and its 
allies should consider stationing a stabilization force not only in 
Kosovo, but also in other countries on the periphery, especially 
Macedonia and Albania (provided those countries wish such a force).
    This stabilization force, which could be NATO-led, would be 
designed to provide reassurance and establish a security umbrella under 
which these countries could carry out a program of comprehensive 
economic and political reform. Without such an umbrella many of the 
governments in the region may not feel confident enough to embark on 
the necessary political and economic reforms or may feel compelled to 
divert scarce resources into the military sector, especially if there 
is a non-democratic, hostile government in Belgrade.
    As in Bosnia, the majority of the stabilization forces could--and 
should--be provided by America's European allies. They have the 
greatest stake in security in the region. Moreover, they have been 
clamoring to assume more responsibility for alliance security. This 
would provide an important opportunity for them to give substance to 
their ambitions.
    The U.S., however, should also contribute to the stabilization 
force. We cannot expect to claim leadership in the Alliance unless we 
are willing to share the risks with our European allies. And, like our 
allies, we also have a strong stake in ensuring stability in the 
region.
    Some U.S. troops could be redeployed from Germany to participate in 
these stabilization missions in Southeastern Europe. With the end of 
the Cold War and the entry of Hungary, Poland and the Czech Republic 
into NATO, the U.S. no longer needs some 60,000 troops stationed on the 
Central Front to defend borders that are no longer threatened. Indeed, 
it may be time for the U.S. to consider a general redeployment of some 
of these troops into Southeastern Europe. After all, this region, not 
the Central Front, is where the most serious security problems in 
Europe are likely to be in the future.
    The U.S. and its allies should also strengthen regional 
cooperation, such as the Southeastern European Peacekeeping Brigade 
(SEEBRIG), which is composed of Albania, Bulgaria, Greece, Italy, 
Macedonia, Romania, and Turkey. It will take a while for the 
multinational brigade, which will initially be stationed in Plovdiv, 
Bulgaria, to become a credible military force. However, such regional 
structures have an important political as well as military function and 
can help promote trust and cooperation among the military 
establishments of the region, thereby contributing to overall regional 
cooperation and stability.
    Such a comprehensive stabilization strategy obviously cannot be 
carried out overnight. It will take time--and a significant commitment 
of resources, both on the part of the U.S. and its European allies. But 
the price tag--in lives and treasure--is likely to be significantly 
higher if such a comprehensive effort is not undertaken and the 
problems of Southeastern Europe are allowed to fester or continue to be 
addressed only piecemeal.
    Thank you very much, Mr. Chairman. I welcome the opportunity to 
answer any questions related to my testimony.

                                  <all>

</pre></body></html>
